<html>
<title> - MISCELLANEOUS NATIONAL PARKS BILLS</title>
<body><pre>[Senate Hearing 109-355]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 109-355
 
                   MISCELLANEOUS NATIONAL PARKS BILLS

=======================================================================

                                HEARING

                               before the

                     SUBCOMMITTEE ON NATIONAL PARKS

                                 of the

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                                   ON
                                     

                         S. 431                              S. 505

                         S. 748                              S. 1288

                         S. 1544                             S. Con. Res. 60

                         H.R. 1084                           H.R. 2107


                                     

                               __________

                           NOVEMBER 15, 2005


                       Printed for the use of the
               Committee on Energy and Natural Resources


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
26-947                      WASHINGTON : 2006
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                 PETE V. DOMENICI, New Mexico, Chairman
LARRY E. CRAIG, Idaho                JEFF BINGAMAN, New Mexico
CRAIG THOMAS, Wyoming                DANIEL K. AKAKA, Hawaii
LAMAR ALEXANDER, Tennessee           BYRON L. DORGAN, North Dakota
LISA MURKOWSKI, Alaska               RON WYDEN, Oregon
RICHARD M. BURR, North Carolina,     TIM JOHNSON, South Dakota
MEL MARTINEZ, Florida                MARY L. LANDRIEU, Louisiana
JAMES M. TALENT, Missouri            DIANNE FEINSTEIN, California
CONRAD BURNS, Montana                MARIA CANTWELL, Washington
GEORGE ALLEN, Virginia               JON S. CORZINE, New Jersey
GORDON SMITH, Oregon                 KEN SALAZAR, Colorado
JIM BUNNING, Kentucky

                       Alex Flint, Staff Director
                   Judith K. Pensabene, Chief Counsel
               Robert M. Simon, Democratic Staff Director
                Sam E. Fowler, Democratic Chief Counsel
                                 ------                                

                     Subcommittee on National Parks

                    CRAIG THOMAS, Wyoming, Chairman
               LAMAR ALEXANDER, Tennessee, Vice Chairman

GEORGE ALLEN, Virginia               DANIEL K. AKAKA, Hawaii
RICHARD M. BURR, North Carolina      RON WYDEN, Oregon
MEL MARTINEZ, Florida                MARY L. LANDRIEU, Louisiana
GORDON SMITH, Oregon                 JON S. CORZINE, New Jersey
                                     KEN SALAZAR, Colorado

   Pete V. Domenici and Jeff Bingaman are Ex Officio Members of the 
                              Subcommittee

                Thomas Lillie, Professional Staff Member
                David Brooks, Democratic Senior Counsel


                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                                                                   Page

Akaka, Hon. Daniel K., U.S. Senator from Hawaii..................     2
DeWine, Hon. Mike, U.S. Senator from Ohio........................     3
Gregg, Hon. Judd, U.S. Senator From New Hampshire................     2
Kyl, Hon. Jon, U.S. Senator from Arizona.........................     1
Letourneau, Bob, New Hampshire State Senator, Concord, NH........    16
Murphy, Donald W., Deputy Director, National Park Service, 
  Department of the Interior.....................................     5
O'Neil, John Jordan ``Buck'', Chairman, The Negro Leagues 
  Baseball 
  Museum, Kansas City, MO........................................    24
Talent, Hon. James M., U.S. Senator from Missouri................    22
Thomas, Hon. Craig, U.S. Senator from Wyoming....................     1
Wadhams, Emily, Vice President for Public Policy, The National 
  Trust for Historic Preservation................................    18
Wyden, Hon. Ron, U.S. Senator from Oregon........................    16

                               APPENDIXES
                               Appendix I

Responses to additional questions................................    31

                              Appendix II

Additional material submitted for the record.....................    35


                   MISCELLANEOUS NATIONAL PARKS BILLS

                              ----------                              


                       TUESDAY, NOVEMBER 15, 2005

                               U.S. Senate,
                    Subcommittee on National Parks,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:33 p.m. in 
room SD-366, Dirksen Senate Office Building, Hon. Craig Thomas 
presiding.

            OPENING STATEMENT OF HON. CRAIG THOMAS, 
                   U.S. SENATOR FROM WYOMING

    Senator Thomas. Good afternoon. I welcome you to the 
committee. I want to welcome Deputy Director Don Murphy and 
other witnesses for today's subcommittee. Our purpose for this 
hearing is to receive testimony on five Senate bills, one 
concurrent resolution, and two House bills: S. 431, a bill to 
establish a program to award grants to improve and maintain 
sites honoring Presidents of the United States; S. 505, a bill 
to amend the Yuma Crossing National Heritage Area Act of 2000 
to adjust the boundaries of the Yuma Crossing National Heritage 
Area; S. 1288, a bill to authorize the Secretary of the 
Interior to enter into cooperative agreements to protect 
natural resources of units of the National Park Service through 
collaborative efforts on land inside and outside of units of 
the Park Service; S. 1544, a bill to establish the Northern 
Plains National Heritage Area in the State of North Dakota; 
Senate Concurrent Resolution 60, a concurrent resolution 
designating the Negro Leagues Baseball Museum in Kansas City, 
Missouri, as the Nation's National Negro Leagues Baseball 
Museum; S. 748 and H.R. 1084, to authorize the establishment at 
the Antietam National Battlefield of a memorial to officers and 
enlisted men of the Fifth, Sixth, and Ninth New Hampshire 
Volunteer Infantry Regiments; and H.R. 2107, a bill to amend 
Public Law 104-329 to modify authorities for the use of the 
National Law Enforcement Officers Memorial Maintenance Fund, 
and other long titles such as that.
    So, Senator, do you have any comment?
    [The prepared statements of Senators Kyl and Gregg follow:]

 Prepared Statement of Hon. Jon Kyl, U.S. Senator From Arizona, on S. 
                                  505

    Mr. Chairman, thank you for holding this hearing and allowing me to 
say a few words about S. 505, a bill to amend the Yuma Crossing 
National Heritage Area Act of 2000 to adjust the boundary of the Yuma 
Crossing National Heritage Area.
    The Yuma Crossing Heritage Area and the improvements it has sparked 
along the Colorado River and in downtown Yuma enjoy overwhelming 
support from its citizens. This is largely the result of the community-
based heritage area planning process that developed the National Park 
Service approved management plan in 2002. That plan sharpened the focus 
of the heritage area on seven riverfront and downtown districts.
    The current boundary of the heritage area that was set in the 2000 
authorizing legislation, however, does not reflect the more restricted 
boundaries set in management plan developed by the community. That is 
why I introduced this bill, to conform the heritage area to the 
boundaries set in the management plan. No purpose is served by 
continuing the original boundaries.
    This is a non-controversial, straightforward correction that enjoys 
the support of the citizens of Yuma. I hope my colleagues will work 
with me to pass it quickly this year.
                                 ______
                                 
Prepared Statement of Hon. Judd Gregg, U.S. Senator From New Hampshire, 
                              on H.R. 1084

    Thank you Mr. Chairman. I would like to express my support for H.R. 
1084, a bill to authorize a memorial at Antietam National Battle field. 
H.R. 1084 was introduced by my colleagues Representative Jeb Bradley 
and Charlie Bass in the House with companion legislation (S. 748) 
introduced in the Senate by myself and Senator Sununu. Having recently 
celebrated Veterans Day, we are once again reminded of the tremendous 
service and sacrifices made by our men and women in uniform. Throughout 
history, Americans from all over our great land have, and continue to, 
answer our nation's call. Many have made the ultimate sacrifice. For 
this, no thank you will ever suffice, but as a nation it is our duty to 
try.
    This bill is a way for our country and our state to attempt to say 
thank you to brave men of the Fifth, Sixth, and Ninth New Hampshire 
Volunteer Infantry Regiments and the First New Hampshire Light 
Artillery Battery who fought in the Battle of Antietam, the bloodiest 
single-day battle in American history. Among this group, the 5th New 
Hampshire holds the distinction of having the highest casualty rate of 
any Union unit during the Civil War, one-third of them occurring at 
Antietam. These men were also responsible for constructing the famous 
Grapevine Bridge over the Chockahominy River in May 1862, saving many 
lives during the Seven Days Battles around Richmond, Virginia.
    The valor and success of these and the other men of the Army of the 
Potomac at Antietam provided a solid base for President Abraham Lincoln 
to proclaim the Emancipation Proclamation. It is my hope that this 
subcommittee will report out favorably H.R. 1084 so that we may 
memorialize these Granite State soldiers in a manner which they have 
earned.

        STATEMENT OF HON. DANIEL K. AKAKA, U.S. SENATOR 
                          FROM HAWAII

    Senator Akaka. Yes. Thank you very much, Mr. Chairman. I 
would like to make a few remarks on S. 1288, Senator Wyden's 
bill to authorize the National Park Service to enter into 
collaborative efforts on lands outside of park boundaries. I am 
pleased to be an original co-sponsor of this bill. Last August 
you were kind enough, Mr. Chairman, to allow this subcommittee 
to hold a hearing at Hawaii Volcanoes National Park to look at 
the issue of managing invasive species in and around national 
parks.
    Although invasive species are a major management problem 
throughout the country, the situation is especially acute in 
Hawaii. Invasive species are the primary cause of the declining 
native habitat in national parks, including Hawaii's threatened 
and endangered species. It is an unfortunate fact that over the 
past 30 years, of the 114 species that have become extinct over 
that time, almost half were native to Hawaii. In addition, 
invasives cause millions of dollars of damage to agriculture 
and private property owners in Hawaii.
    The management and control of invasive species is one of 
the major challenges facing Hawaii's national parks, whether it 
is the spread of miconia, a dense, fast-growing tree 
threatening Haleakala National Park, or eliminating invasive 
weeds and other plants at Hawaii's volcanoes. A consistent 
theme from the August field hearing was that the key to 
successfully managing invasive species in parks is being able 
to take proactive measures for prevention, authority that the 
Park Service currently does not have.
    I believe S. 1288 will provide an important new tool for 
park managers in Hawaii and throughout the country to develop 
local partnerships to address this vital management issue. I 
commend Senator Wyden for introducing this bill and I look 
forward to working with both of you to move this legislation 
quickly through committee and the Senate.
    Thank you very much, Mr. Chairman.
    Senator Thomas. Thank you.
    Senator DeWine, welcome to the committee.

          STATEMENT OF HON. MIKE DeWINE, U.S. SENATOR 
                           FROM OHIO

    Senator DeWine. Thank you, Mr. Chairman.
    Mr. Chairman, I am here to talk about S. 431, which is a 
bill that I have introduced along with Senator Allen as well as 
Senator Gordon Smith. Mr. Chairman, I would ask permission to 
have my prepared statement be made a part of the record, if I 
could. Mr. Chairman, if I could ask permission to have my 
statement as part of the record.
    Senator Thomas. Without objection.
    Senator DeWine. Mr. Chairman, I will be very brief. I know 
you have a lot of witnesses here today.
    Our bill is a very simple bill. There are currently 88 
sites in the United States that are connected with a former 
President of the United States--these are birthplaces, homes, 
tombs--88 sites that are not owned by the Federal Government. 
Let me repeat, they are not owned by the Federal Government.
    What our bill does is authorize $5 million per year to help 
in the maintenance and upkeep of these particular sites. I want 
to make it very clear, we do not intend to have the Federal 
Government take control of these sites. We do not intend to 
have the Federal Park Service take ownership or to have any of 
the upkeep of these sites. I know that is always a concern of 
this subcommittee, that the Government would be taking on more 
responsibility.
    But the fact is that these 88 sites that are associated 
with different Presidents, many of them are birthplaces, many 
of them are homes, are owned by local historic societies. Some 
are owned by States, some of them are owned by local 
organizations. Many times they simply do not have the resources 
to adequately keep these wonderful historic sites up.
    What our bill does is provide $5 million, authorizes $5 
million per year. It provides for a board that is appointed by 
the Secretary of the Interior, a five-person board, that would 
determine every year how this money would be allocated. 65 
percent of the money would go to small sites. These would be 
sites that have an operating budget of under $700,000 a year. 
20 percent would go to larger sites and 15 percent would go for 
emergency funds.
    That is really what the bill does. It would preserve these 
wonderful sites, places like for example Senator Alexander's--I 
wish he was here, but Senator Alexander's home State of 
Tennessee, the Hermitage, the President Johnson Museum and 
Library, Abraham Lincoln Library, James Polk Ancestral Home. 
Senator Allen in Virginia has 18 different sites. Senator Burr 
in North Carolina has two different sites. Senator Martinez 
from Florida, Harry S Truman, the Little White House in the 
Keys.
    They are just wonderful historic sites. They need 
assistance. They need help, and we really need to authorize 
this money and then of course later on the appropriators will 
have to decide of course where that money will come from and 
how much of that $5 million would be appropriated each year.
    So I thank the chair and we appreciate your listening to 
me.
    [The prepared statement of Senator DeWine follows:]

     Prepared Statement of Hon. Mike DeWine, U.S. Senator From Ohio

    Mr. Chairman, thank you for including S. 431, the Presidential 
Sites Improvement Act, in this afternoon's hearing. This legislation, 
which I introduced along with Senator Durbin, is an effort to honor the 
great men who have served as our former Chief Executives and have 
influenced the development of our Nation. This Act would create a new 
and innovative partnership with public and private entities to preserve 
and maintain Presidential sites, such as birthplaces, homes, memorials, 
and tombs.
    Mr. Chairman, hands-on learning takes place when a child boards a 
bus for a field trip to visit historic sites. By touring the birthplace 
or home of the same individuals they have read about in the classroom, 
children gain a comprehensive appreciation of history.
    This type of learning can continue only through the preservation of 
the birthplaces, homes, memorials, and tombs of our former Presidents.
    Family foundations, colleges and universities, libraries, 
historical societies, historic preservation organizations, and other 
non-profit organizations own the majority of these sites. These 
entities often have little funding and are unable to meet the demands 
of maintaining such important landmarks. Operating costs must be met 
before maintenance needs, and when these payments cannot be made, the 
sites slowly deteriorate.
    I have visited many of the Presidential historic sites throughout 
my home state of Ohio--a state that has been home to eight Presidents. 
During one such visit at the Ulysses S. Grant house, I found it 
disturbing to see the discoloration and falling plaster due to water 
damage. At the home of President Warren Harding, I noticed that the 
famous front porch where then-candidate Harding gave his campaign 
speeches was actually detached from the house.
    Fortunately, we were able to obtain the funding to prevent these 
two historic treasures from deteriorating further. By providing federal 
assistance for maintenance projects today, we can help prevent larger 
problems tomorrow.
    Mr. Chairman, these Presidential sites are far too important to let 
them silently decay. Our legislation would authorize grants, 
administered by the National Park Service, for maintenance and 
improvement projects on Presidential sites that are not federally owned 
or managed. A portion of the funds would be set aside for sites that 
are in need of emergency assistance. To administer the new program, 
this legislation would establish a five-member committee, including the 
Director of the National Park Service, a member of the National Trust 
for Historic Preservation, and a state historic preservation officer. 
This committee would make grant recommendations to the Secretary of the 
Interior. Each grant would require a fifty percent non-federal dollar 
match. Up to $5 million would be made available annually.
    Mr. Chairman, once again I would like to thank you for holding this 
hearing and I would like to thank Ms. Emily Wadhams, Vice President of 
Public Policy for the National Trust for Historic Preservation, for 
agreeing to testify on the importance of this legislation. I look 
forward to continuing to work with the Committee to pass this bill.

    Senator Akaka [presiding]. Thank you very much, Senator 
DeWine. I thank you for your statement and thank you for trying 
to bring forth these sites and to make them available for the 
general public. I want to wish you well in your work.
    Senator DeWine. Thank you very much.
    Senator Akaka. And I have no questions for you. Senator 
Thomas does not have any questions for you. Thank you so much 
for coming.
    Our first panel today, I would like to welcome Mr. Donald 
Murphy, who is the Deputy Director of National Park Service. I 
thank you for being here and look forward to your statements. I 
know you will be speaking on each of the bills that are being 
proposed here and I look forward to your statement. You may 
begin.

        STATEMENT OF DONALD W. MURPHY, DEPUTY DIRECTOR, 
       NATIONAL PARK SERVICE, DEPARTMENT OF THE INTERIOR

    Mr. Murphy. Thank you very much, Mr. Chairman. I would like 
to enter my written testimony into the record. I believe the 
committee has that. I will go through each bill in turn and 
then take questions afterwards.
    Senator Akaka. Your complete statement will be included in 
the record.
    Mr. Murphy. Thank you, sir.
    S. 431, a bill to establish a program to award grants to 
improve and maintain sites honoring Presidents of the United 
States. The NPS is opposed to this bill. However, the 
Department supports efforts to protect Presidential sites which 
honor our country's former Presidents and they are an important 
historical part of our national heritage. The birthplaces, the 
museums, the memorials and tombs do provide excellent resources 
to study and learn about our past Presidents' lives, 
leadership, and values.
    However, because of the financial implications of this 
bill, the National Park Service is opposed to this particular 
bill.
    Moving on to the next bill, S. 1288, the National Park 
Service is very much in support of S. 1288, the bill to 
authorize the Secretary of the Interior to enter into 
cooperative agreements to protect park natural resources 
through collaborative efforts on land inside and outside of the 
units of the National Park Service. Senator, you spoke very 
eloquently on the need for this and the National Park Service 
has worked very hard over the last several years, both with the 
administration and with you, on this bill. I think it is going 
to go a long way toward providing for better management of our 
natural resources, particularly there in Hawaii where the 
threats are so dire.
    The next bill, S. 1544, the National Park Service does not 
support this particular bill unless it is amended. If it is 
amended to authorize a feasibility study to determine whether 
the Northern Plains National Heritage Area in the State of 
North Dakota meets the criteria to be designated as a national 
heritage area, the National Park Service could support the bill 
if that bill is so amended.
    The next bill is Senate Concurrent Resolution 60, 
designating the Negro Leagues Baseball Museum in Kansas City, 
Missouri, as America's National Negro Leagues Baseball Museum. 
As you know, the National Park Service, Department of the 
Interior, does not take official positions on resolutions. 
However, we certainly support the concept. The museum is of 
particular interest to the National Park Service because it is 
an important part of the American heritage, it is an important 
story to be told. It is part of what we often call the soul of 
America, and it is an important aspect of life in this country.
    The National Park Service has provided quite a bit of 
background information for the committee on the museum and on 
the Negro Leagues in the United States of America, and we 
certainly support the concept and look forward to the passage 
of this particular resolution.
    The next bill, they are identical bills, S. 748 and H.R. 
1084. The Department opposes enactment of this legislation 
because of the potential impacts and permanent alteration that 
would be made to the historical landscape and hallowed grounds 
of the Antietam Battlefield.
    Several years ago the general management plan for the park 
authorized a moratorium and we have been working with States 
and various regiments to offer alternatives to placing new 
memorials in the park. Having stated that, we recognize that 
this is a fairly well-crafted bill and if it were to pass I 
know the National Park Service looks forward to working with 
the State of New Hampshire on the proper way to memorialize 
those regiments that fought at Antietam.
    The next bill is H.R. 2107. H.R. 2107 would amend section 
201 of the public law and it would authorize the Secretary of 
the Interior to enter into cooperative agreements, of course, 
with the Law Enforcement Officers Memorial Fund, Inc., which is 
a nonprofit corporation, to maintain and repair the National 
Law Enforcement Officers Memorial in Washington, D.C. The 
National Park Service is very much in support of this 
legislation.
    I am not sure about my adeptness here, but I need to go to 
S. 505. That is what happens when you have seven bills at one 
time. S. 505 is a boundary adjustment and the Department 
supports the proposed boundary change, which is based on the 
findings of the 2002 management plan for the national heritage 
area. We recommend, however, that the bill be amended to 
include an official map reference similar to the maps used for 
other national heritage areas. The reason for this is that the 
bill goes through a fairly lengthy, page after page legal 
description of the boundary adjustment and it is our normal 
practice to simply include a map that shows the boundary 
adjustments. It is a much more efficient way to show what the 
changes are, and we simply ask that the bill be amended in that 
way.
    Mr. Chairman, that concludes my testimony and I am willing 
to answer any questions that the committee might have.
    [The prepared statements of Mr. Murphy follow:]

Prepared Statement of Donald W. Murphy, Deputy Director, National Park 
                  Service, Department of the Interior

                               ON S. 431

    Mr. Chairman, thank you for the opportunity to present the views of 
the Department of the Interior on S. 431, a bill to establish a program 
to award grants to improve and maintain sites honoring Presidents of 
the United States.
    The Department supports efforts to protect Presidential sites, 
which honor our country's former presidents and are an important 
historical part of our national heritage. The birthplaces, museums, 
memorials, and tombs provide excellent resources to study and learn 
about our past presidents' lives, leadership, and values. The value and 
educational benefit of visiting first hand the birthplace or other 
memorial site of a person one has read or studied about can leave a 
very indelible impression that cannot be acquired in any other way. 
Being involved in history and in the lives of those who have 
contributed to our American legacy through physical, mental, and 
emotional contact with the things that helped shape their lives or the 
places that store their remains can bring a deeper appreciation of our 
country's struggles and the heritage we enjoy today.
    However, because of the financial implications of this bill on 
national parks and park programs, the Department opposes the enactment 
of S. 431 at this time. We believe funds are more appropriately 
directed at this time to reducing the long list of necessary but 
deferred construction projects that have been identified in our 
national parks.
    Our opposition does not detract from the significance and 
importance of creating partnerships with public and private entities to 
preserve and maintain the non-Federal Presidential sites of our 
nation's past presidents. Rather, our opposition is due to our belief 
that it is inappropriate to use limited National Park Service 
appropriations to fund maintenance and improvement projects for 
institutions and sites that are not part of the National Park System.
    We encourage the family foundations, historical societies, historic 
preservation organizations, and other non-profit organizations that own 
the majority of these sites to continue to seek funding for the 
maintenance and improvement projects necessary to prevent further 
deterioration and continued interpretation of these sites and 
structures. We believe that there are other sources of funding 
available for the restoration and maintenance needs of these 
Presidential sites. One national example is the Save America's 
Treasures program that awards grants for preservation and conservation 
work on nationally significant intellectual and cultural artifacts and 
nationally significant historic structures and sites. These 
Presidential Sites are ``national class properties'' and would, we 
believe, compete favorably in the Save America's Treasures program as 
well as in any other fundraising campaign. The Department would be more 
than happy to assist with developing Save America's Treasures 
applications to accomplish this important work.
    S. 431 authorizes the Secretary of the Interior to establish a 
grant program to help pay for major repairs, modifications, and capital 
and interpretive improvements to non-Federal Presidential sites. The 
legislation would establish the Federal share of the cost to be 50 
percent or less of the total cost of a project. Appropriated funds of 
$5 million would be authorized for fiscal years 2006 through 2010, with 
funds available until expended. The bill states that 15 percent of the 
grant money would be used for emergency projects; 65 percent for 
Presidential sites with a 3-year annual operating budget of less than 
$700,000, with an endowment less than 3 times the annual operating 
budget; and 20 percent for sites with an annual operating budget of 
$700,000 or more, with an endowment equal to or more than 3 times the 
annual operating budget. It also states that unexpended funds may be 
used for another category of projects described in the Act.
    S. 431 also outlines the application and award procedures and 
authorizes the establishment of the Presidential Site Grant Commission 
(Commission). The operators and owners would submit applications to the 
Secretary who would then forward them to the Commission. The Commission 
would review the applications and make recommendations to the Secretary 
for grant assistance. Of the five members on the Commission, two of the 
four members appointed by the Secretary would represent the 
Presidential sites eligible for grant awards. The term for an appointed 
member is two years. The bill states that during the two-year period in 
which a representative of a particular site serves on the Commission 
that site would be ineligible for grant money under this Act.
    Presidential sites honor our country's former presidents and are an 
important historical part of our national heritage. While we recognize 
that these sites provide a valuable link to understanding our country's 
history and government, we believe that National Park Service funds 
should not be authorized for this purpose.
    Mr. Chairman, this concludes my prepared testimony. I would be 
happy to answer any questions you or your committee may have.

                               ON S. 505

    Mr. Chairman, thank you for the opportunity to present the views of 
the Department of the Interior on S. 505, a bill to amend the Yuma 
Crossing National Heritage Area Act of 2000 to adjust the boundary of 
the Yuma Crossing National Heritage Area.
    The Department supports the proposed boundary change which is based 
on the findings of the 2002 management plan for the National Heritage 
Area (NHA). We recommend that the bill be amended to include an 
official map reference similar to the maps used for other National 
Heritage Areas.
    S. 505 would amend Section 3(b) of the Yuma Crossing National 
Heritage Area Act of 2000, Public Law 106-319, to adjust the boundary 
of the National Heritage Area to reflect the boundaries outlined and 
approved in the management plan for the heritage area. On September 29, 
2005, at a House Subcommittee on National Parks hearing, the Department 
testified in support of an identical boundary adjustment for this 
heritage area that was included in H.R. 326, a similar bill.
    Yuma Crossing National Heritage Area was authorized by P.L. 106-
319, signed on October 19, 2000. The Department supported the 
legislation to establish the NHA at hearings in both the House and 
Senate during the 106th Congress. Since establishment, the National 
Park Service (NPS) has worked with the Yuma Crossing NHA staff and the 
community to develop the management plan required in the legislation. 
That plan was completed in July 2002 and approved by the Secretary in 
December 2003.
    Yuma has been a home to Native Americans for nearly 1,500 years, 
prior to becoming a city at the junction of the Colorado and Gila 
Rivers. The Spanish ``discovered'' the area seventy years before the 
Pilgrims landed at Plymouth Rock. As Americans moved west, Yuma became 
one of the stopping points for those following gold and fortune as well 
as a key military post. Yuma also prospered as a port city, then a 
railroad town, and finally as a link on the first southern 
transcontinental highway. By the 20th century Yuma continued to rely on 
water, this time with major government dam and diversion projects on 
the Colorado River that brought the ability of year-round agricultural 
production.
    The authorizing legislation established a boundary for the heritage 
area of approximately 22 square miles based upon early studies that 
showed great potential for natural, cultural and recreational resources 
within that area. Once the NHA was authorized, work began on the 
management plan. The plan refined and further developed the concepts 
outlined in the feasibility study, dividing the NHA into seven 
districts that feature natural, cultural and recreational resources 
consistent with the authorizing legislation, incorporating 
opportunities for economic development, and acknowledging the 
importance of maintaining residential areas.
    At the same time, Yuma Crossing NHA was also aware of the need to 
ensure that the goals of the management plan could be achieved 
financially and were acceptable to the entire community. Taking these 
elements into consideration, the NHA board developed the management 
plan which included a proposal for a new boundary. The management plan 
received extensive public involvement and the NHA board used NPS 
planning models in addition to National Environmental Policy Act and 
National Historic Preservation Act Section 106 guidelines to develop 
and analyze their options.
    Three alternatives were developed for public involvement and 
review. S. 505 includes the preferred alternative for the new boundary 
which would continue to meet the intent and goals for which the 
heritage area was established. We recommend that the bill be amended to 
remove the written description of the boundary adjustment currently in 
S. 505 and to replace it with a map reference that shows the new 
boundary. NPS produced a map similar to boundary maps for other 
heritage areas that was used when H.R. 326 was amended. We would be 
happy to provide the subcommittee with this map. The written 
description of the boundary adjustment found in the bill, as well as a 
reference to the map included on page 40 of the ``Yuma Crossing 
National Heritage Area Management Plan'', could be included in the 
report language for the bill.
    We commend the NHA board, members, and partners, as well as the 
citizens in and around Yuma, Arizona, for their time and commitment to 
this project. We look forward to continuing to work with them to 
achieve the goals of the Yuma Crossing National Heritage Area.
    That concludes my prepared remarks. I would be pleased to answer 
any questions you or other members of the subcommittee may have.

                        ON S. 748 AND H.R. 1084

    Mr. Chairman and members of the subcommittee, thank you for the 
opportunity to appear before you today to present the Department of the 
Interior's views on S. 748 and H.R. 1084, identical bills to authorize 
the establishment at Antietam National Battlefield of a memorial to the 
officers and enlisted men of the Fifth, Sixth, and Ninth New Hampshire 
Volunteer Infantry Regiments and the First New Hampshire Light 
Artillery Battery who fought in the Battle of Antietam on September 17, 
1862.
    The Department opposes enactment of this legislation because of the 
potential impacts and permanent alterations that would be made to the 
historical landscape and hallowed grounds of Antietam Battlefield.
    S. 748 and H.R. 1084 would authorize the Secretary of the Interior 
to establish a memorial within the boundary of the Antietam National 
Battlefield. The Secretary would select the persons to establish the 
memorial, and approve the size, design, and inscriptions of the 
memorial. An annual report would be prepared on the progress of the 
operations and fundraising efforts related to the establishment of the 
memorial. No Federal funds would be used to establish the memorial. 
Upon completion of the memorial, the Secretary would assume the 
responsibility for its maintenance.
    Established by an Act of Congress on August 30, 1890, this Civil 
War site marks the end of General Robert E. Lee's first invasion of the 
North in September 1862. Over 600 military units fought in the battle 
at Antietam that claimed more than 23,000 men who were killed, wounded, 
and/or missing in 12 hours of fighting on September 17. It also led to 
President Abraham Lincoln's issuance of the Emancipation Proclamation. 
Antietam National Battlefield is one of 28 sites managed by the 
National Park Service (NPS) to preserve and interpret Civil War 
military history. Last year alone nearly 237,000 visitors came to 
participate in the unique historical perspective that this landscape 
offers. That number swelled to over 313,000 in 2002, the 140th 
anniversary of the Battle of Antietam.
    Antietam National Battlefield is known as one of the most well-
preserved Civil War battlefields in the United States. Veterans of the 
battle placed the majority of the 104 monuments on this site between 
1890 and 1915. The monuments are in commemoration of their sacrifices 
and are typically located where the troops fought during the battle. 
There are regimental monuments, state monuments, and monuments to 
individuals. A mortuary cannon--an inverted cannon barrel in a block of 
stone--marks the location where each of the six generals fell who were 
either killed or mortally wounded. There is also a monument to war 
correspondents. These monuments are small in size and do not impact the 
historic landscape, which allows battlefield visitors to fully 
understand the solders' efforts on that day. New Hampshire is one of 17 
states that sent troops to Antietam. The New Hampshire troops fought at 
Burnside Bridge along with regiments from Pennsylvania and New York.
    A moratorium has been in place since 1991 at the battlefield, which 
precludes the construction of new monuments or memorials. The need for 
a moratorium was identified as necessary during the development of the 
General Management Plan (GMP). The GMP is a long-term planning document 
that provides NPS managers with guidelines and objectives in the 
preservation of these historic grounds. The study of the battlefield, 
which culminated in this GMP, was undertaken with substantial input 
from the public and civil war historians nationwide. The findings 
concluded that the continued addition of memorials would result in an 
unacceptable permanent alteration of the historic landscape. The NPS 
conducts an active year-round program to educate visitors about the 
Battle of Antietam and to pay tribute to the valor and sacrifice of all 
those who shared in the pivotal history of this battle.
    The role of the New Hampshire Volunteer Infantry and Light 
Artillery Battery is widely recognized in the annals of Civil War 
history. However, we believe the protection of the historic character 
of the battlefield, the purpose for which this land was set aside by 
Congress in 1890, requires us to seek other alternatives and better 
means to commemorate this contribution and that of nearly 500 military 
units which are not represented by the traditional sculptures and 
statuary today. We believe there are exciting and honorable 
opportunities open for the commemoration of these New Hampshire 
regiments without permanently altering the landscape, which we seek to 
protect in their honor. We have a duty to protect the history of all 
who fought in the Battle of Antietam.
    The Battle of Antietam is the bloodiest one-day battle in American 
history. This battle site is indeed hallowed ground. We understand and 
appreciate the desires of the people of New Hampshire to erect a 
monument to honor their ancestors who fought here, but we feel that the 
preservation of the landscape, the ground where these men stood firm, 
fought, and died, is our utmost priority. We will continue to explore 
other ways to honor the New Hampshire volunteers and others who 
participated in the battle.
    Mr. Chairman, thank you for the opportunity to comment. This 
concludes my prepared remarks and I will be happy to answer any 
questions you or other committee members might have.

                               ON S. 1288

    Mr. Chairman, thank you for the opportunity to appear before your 
committee to present the views of the Department of the Interior on S. 
1288, a bill to authorize the Secretary of the Interior to enter into 
cooperative agreements to protect park natural resources through 
collaborative efforts on land inside and outside of units of the 
National Park System.
    The Department supports enactment of this bill with amendments to 
make it consistent with the language contained in the Administration 
proposal transmitted to Congress on August 5, 2005.
    S. 1288 would authorize the Secretary to enter into cooperative 
agreements with willing State, local, or tribal governments, other 
public entities, educational institutions, private nonprofit 
organizations, and private landowners to protect natural resources of 
units of the National Park System. These cooperative agreements would 
benefit the partners and enhance science-based natural resource 
stewardship through such projects as preservation and restoration of 
coastal and riparian watersheds, prevention and control of invasive 
species, and restoration of natural systems including wildlife habitat. 
The scope of the cooperative agreements would cover projects that 
include management of the natural resources, as well as inventory, 
monitoring, and restoration activities for preserving park natural 
resources.
    The bill would prohibit the use of appropriated funds for land 
acquisition, regulatory activity, or the development, maintenance, or 
operation of infrastructure, except for ancillary support facilities 
that the Secretary determines to be necessary for the completion of 
projects or activities identified in the cooperative agreements. All 
cooperative agreements authorized by this bill would be voluntary.
    According to a General Accounting Office (GAO) report from February 
2005, the National Park Service is the only major Federal land 
management agency that does not have authority to expend resources 
outside its boundaries when there is a benefit to the natural resources 
within the boundaries of these lands. This lack of consistency among 
Federal agencies was cited by GAO as a barrier to effective control of 
invasive species on Federal and non-Federal lands. This bill would 
provide authority to the National Park Service (NPS), similar to that 
already held by the Bureau of Land Management and the U.S. Forest 
Service, to use appropriated funds to enter into cooperative agreements 
with various partners when such activities provide clear and direct 
benefits to park natural resources through collaborative efforts on 
lands inside and outside of National Park System units. For example, at 
the Grand Canyon National Park, if NPS had this authority, resource 
managers could work with the Hulapai Indian Tribe to control tamarisk, 
an invasive tree, to mutually protect the reservation and the park from 
further infestation.
    Of the 83 million acres managed by NPS, 2.6 million acres are 
infested by invasive plants such as mile-a-minute, kudzu, and knapweed, 
reducing the natural diversity of these areas. When populations of 
native plants are decreased, the animals that depend upon them lack the 
food and shelter needed for survival. This is especially a concern for 
threatened and endangered species found on parklands. In the case of 
plants, these single species stands are also more vulnerable to disease 
and can serve as fuel for wildfires. Because invasive plants and 
animals cross geographic and jurisdictional boundaries, it is more 
efficient to control these invasive species through collaborative 
efforts both inside and outside of park boundaries. If the NPS can 
rapidly respond and prevent invasive species from entering our parks 
instead of trying to control and eradicate them once they are within 
our borders, we can better protect our park natural resources and in 
many cases, avoid the problem altogether. In addition, by partnering 
with willing private landowners, local entities, universities and 
nonprofit organizations, we can recognize a cost savings through shared 
inventory, monitoring and control activities.
    The authority in S. 1288 would also benefit the NPS in areas beyond 
invasive species. For example, at Cape Cod National Seashore in 
Massachusetts, three large wetlands within the park have been impaired 
from salt marsh levees on adjacent lands causing a restricted tidal 
flow to these systems; some of these impairments date back 100 years. 
With no fresh water entering the wetlands, the water quality has been 
degraded resulting in large fish kills and the production of nuisance 
insects, as well as the loss of storm surge protection. Using this 
authority, the NPS would be able to assist local towns in improving 
water control structures outside the park, which in turn would help 
improve the park's wetlands.
    The GAO report also found that collaboration and coordination among 
Federal agencies, and between Federal and non-Federal entities, is 
critical to battling invasive species. Treating invasive plants in one 
area, but not on neighboring lands, can limit its effectiveness. 
Because the NPS does not have the authority to work outside of its 
boundaries, the NPS is often perceived as unwilling to be a partner in 
grassroots efforts to address shared natural resource management issues 
at the local or regional level. In many of our parks, the NPS manages 
only the downstream portion of a river. By working with upstream 
communities to improve water quality and to decrease sedimentation and 
runoff, the entire watershed can benefit from these partnerships. For 
example, at Morristown National Historical Park, Primrose Brook 
contains a genetically pure strain of brook trout. Ninety five percent 
of the watershed outside the park is protected. Through cooperative 
agreements with private landowners, best management practices could be 
implemented to protect the entire watershed.
    An informal survey conducted by NPS of our parks indicates that the 
natural resources in at least 63 parks in 28 states would benefit as a 
result of having this authority. Potential projects would include 
working with the Montana Fish, Wildlife and Parks and the U.S. Forest 
Service to put up fencing along the border of Glacier National Park to 
restore white and limber pine and conduct wetlands surveys; at Hagerman 
Fossil Beds National Monument in Idaho, the NPS could work with 
adjacent private landowners to prevent irrigation canal seepage that 
negatively impacts the Snake River; at Yellowstone National Park, the 
NPS could partner with the State of Wyoming to initiate groundwater 
studies in the larger Yellowstone groundwater area that is located 
north of the park; and at the Ozark National Scenic Riverways in 
Missouri, the NPS could undertake an educational program on the 
importance and protection of the karst environment.
    Although the bill focuses on the benefits to natural resources 
within parks from collaborative efforts, there are also economic 
benefits that could be realized through this authority. Many of our 
recreation, lakeshore and seashore parks attract visitors for water-
based activities such as boating, canoeing, and fishing. If NPS can 
improve the water quality in these parks by working with nearby 
landowners and communities to protect the larger watersheds, then 
visitors will have a more positive experience that includes a variety 
of recreational activities. Other visitors enjoy the diverse plant and 
animal species living in our parklands and spend their time watching 
and photographing wildlife in their native habitat. With this 
authority, the NPS can restore riparian areas, replant native grasses, 
shrubs and trees, and eliminate invasive species that compete and 
replace native wildlife. In addition, communities surrounding our parks 
depend upon the dollars that visitors pump into the local economies 
while visiting these areas. Having a diverse natural system of 
resources within parks draws larger numbers of tourists to these 
communities.
    Currently, there are some narrowly defined activities for which the 
Secretary has the authority to expend NPS resources beyond those lands 
owned by the NPS. These limited authorities include cooperative 
agreements for work on national trails; work with state and local parks 
that either adjoin or are in the vicinity of units of the National Park 
System; or assistance to nearby law enforcement and fire prevention 
agencies for emergency situations related to law enforcement, fire 
fighting and rescue.
    In the short time since this bill was introduced, the North 
American Weed Management Association, a network of public and private 
professional weed managers who are involved in implementing county, 
municipal, district, state, provincial or Federal noxious weed laws, 
has voiced their support for this authority. Other organizations are 
currently reviewing the legislation, and we anticipate similar support 
from these groups.
    Finally, we propose amendments, mostly of a technical nature only, 
to ensure that S. 1288 is consistent with the language contained in our 
Administration proposal.
    Mr. Chairman, thank you for the opportunity to comment. This 
concludes my prepared remarks and I will be happy to answer any 
questions you or other committee members might have.
Proposed Amendment to S. 1288
    On p. 2, line 12, strike ``shall--'' insert ``shall provide clear 
and direct benefits to park natural resources and--''.
    On p. 2, lines 14-15, strike subparagraph (A) and renumber 
subsequent paragraphs accordingly.
    On p. 4, line 6, strike ``(b)'' and insert ``(a)''.
    On p. 4, lines 12-14, strike ``There are authorized to be 
appropriated such sums as are necessary to carry out this Act'' and 
insert ``Funds available to carry out the provisions of this Act shall 
be limited to programs and amounts specified in statute for such use in 
the annual appropriation act for the National Park Service.''.

                               ON S. 1544

    Mr. Chairman and members of the Subcommittee, thank you for the 
opportunity to appear before you today to present the Department of the 
Interior's views on S. 1544, a bill to establish the Northern Plains 
National Heritage Area in the state of North Dakota.
    While the Department appreciates the historic, cultural and natural 
features of the area, the Department does not support S. 1544 unless it 
is amended to authorize a feasibility study to determine whether the 
Northern Plains National Heritage Area in the state of North Dakota 
meets the criteria to be designated as a National Heritage Area. We 
caution that our support of an amendment authorizing a study does not 
necessarily mean that the Department will support designation of this 
national heritage area. We generally have asked that the Subcommittee 
defer action on new designations of National Heritage Areas until 
program legislation discussed further in this testimony is enacted.
    Requiring a feasibility study prior to designation is consistent 
with steps and criteria for the National Heritage Area program that 
have been informally implemented for many years, identified in 
testimony by the Department, generally set forth in an Administration 
legislative proposal sent to Congress last year, and included in S. 243 
and H.R. 760, the National Heritage Area Partnership Act.
    The steps and criteria have been developed with input from 
Congress, existing National Heritage Areas, and other experts and are 
designed to ensure that an area has the resources, local interest, and 
other qualities that are critical in establishing a successful National 
Heritage Area. This year, the Administration is working on a similar 
legislative proposal, and we look forward to continuing to work with 
Congress on program legislation. We would like to thank you, Mr. 
Chairman, for your leadership on this issue.
    The four critical steps that need to be completed before Congress 
establishes a National Heritage Area are:

          1. completion of a feasibility study;
          2. public involvement in the feasibility study;
          3. demonstration of widespread public support among heritage 
        area residents for the proposed designation; and
          4. commitment to the proposal from the appropriate players 
        which may include governments, industry, and private, non-
        profit organizations, in addition to the local citizenry.

    The interim criteria to be considered in conducting the feasibility 
study include: (1) An area----

          (A) has an assemblage of natural, historic, cultural, 
        educational, scenic, or recreational resources that together 
        are nationally important to the heritage of the United States;
          (B) represents distinctive aspects of the heritage of the 
        United States worthy of recognition, conservation, 
        interpretation, and continuing use;
          (C) is best managed as such an assemblage through 
        partnerships among public and private entities at the local or 
        regional level;
          (D) reflects traditions, customs, beliefs, and folklife that 
        are a valuable part of the heritage of the United States;
          (E) provides outstanding opportunities to conserve natural, 
        historical, cultural, or scenic features;
          (F) provides outstanding recreational or educational 
        opportunities; and
          (G) has resources and traditional uses that have national 
        importance.

    (2) Residents, business interests, nonprofit organizations, and 
governments (including relevant Federal land management agencies) 
within the proposed area are involved in the planning and have 
demonstrated significant support through letters and other means for 
National Heritage Area designation and management.
    (3) The local coordinating entity responsible for preparing and 
implementing the management plan is identified.
    (4) The proposed local coordinating entity and units of government 
supporting the designation are willing and have documented a 
significant commitment to work in partnership to protect, enhance, 
interpret, fund, manage, and develop resources within the National 
Heritage Area.
    (5) The proposed local coordinating entity has developed a 
conceptual financial plan that outlines the roles of all participants 
(including the Federal Government) in the management of the National 
Heritage Area.
    (6) The proposal is consistent with continued economic activity 
within the area.
    (7) A conceptual boundary map has been developed and is supported 
by the public and participating Federal agencies.

    S. 1544 would establish the Northern Plains National Heritage Area. 
The core area is approximately 80 miles long, anchored at each end by 
nationally designated landmarks. Huff Indian Village National Historic 
Landmark, an ancient Mandan Indian Village is the southern anchor and 
Big Hidatsa Village National Historic Landmark, an ancient Hidatsa 
village located within the Knife River Indian Villages National 
Historic site at Stanton, North Dakota, is the northern anchor. Huff 
and Menoken National Historic Landmarks are also state historic sites 
preserved and managed by the State Historical Society of North Dakota. 
This area encompasses the ancient homeland of the Mandan and Hidatsa 
American Indian nations as well as the Menoken Indian Village, an early 
Indian village site just east of Bismarck, North Dakota, which also 
bears national historic landmark status.
    The bill designates the Northern Plains Heritage Foundation, a non-
profit corporation established under the laws of the State of North 
Dakota, as the management entity for the Heritage Area and outlines its 
duties. It also authorizes the development of a management plan and 
authorizes the use of Federal funds to develop and implement that plan. 
Additionally, the Secretary may, at the request of the management 
entity, provide technical assistance and enter into cooperative 
agreements with other public and private entities to carry out this 
purpose.
    S. 1544 would protect private property rights by requiring that 
owners provide, in writing, consent to be included in any request 
before they are eligible to receive Federal funds from the area. The 
private property owner in the Heritage Area would not be required to 
permit public access (including Federal, State, or local government 
access) to his or her property, or to participate in or be associated 
with the Heritage Area.
    The Northern Plains area is a unique cultural and historic 
landscape, shaped and influenced by centuries of agricultural 
tradition. The climate and geography of the Northern Plains shaped and 
impacted the agricultural life of the first settlers of the Missouri 
River Valley. In the same way, the first people who settled along the 
river shaped the cultural and historic landscape.
    Long before the Europeans came to the area, Mandan and Hidatsa 
cultures flourished along the river in North Dakota. These early people 
thrived for centuries in heavily populated agricultural communities 
along the fertile floodplains. They also depended on the abundance of 
fish, game, and other wildlife throughout the prairies. They were later 
followed by pioneers and homesteaders--generations of farmers and 
ranchers who continue to cultivate the land and reap the harvest 
provided by the abundance of the Northern Plains environment.
    The villages of these early settlers served as a central hub in a 
trade network that spanned the continent. The Heart River segment of 
the Missouri River was the center of the universe for the first people, 
the Mandans, who constructed their permanent earthlodge villages along 
the Missouri River and its tributaries. The Lewis and Clark Expedition 
even benefited from the hospitality and friendship of the Mandan and 
Hidatsa when they spent the winter along the Garrison Reach near 
present-day Washburn.
    Today, the Mandan language is in danger of extinction with only two 
conversational speakers able to participate in a preservation project. 
Therefore, as part of their preservation initiatives within the 
Northern Plains area, the Northern Plains Heritage Foundation's 
language initiative is focusing on preserving and archiving language 
vocabularies, beginning with the recording of Mandan language 
materials. It also is supporting the development of instructional 
materials for Mandan, Hidatsa, Arikara, Lakota, French and German 
language teachers. Language has always been a key element that 
characterizes and underpins the cultural integrity and unique identity 
of a people or an ethnic group.
    The Department believes that a feasibility study would further 
examine and define the unique geographical, cultural, and historical 
resources of the Northern Plains area, ensure widespread public 
involvement, determine local interest and commitment, and provide other 
valuable information as to whether the area qualifies for designation 
as a National Heritage Area.
    Mr. Chairman, that concludes my statement. I would be pleased to 
answer any questions you or other members of the Subcommittee may have.

                           ON S. CON. RES. 60

    Mr. Chairman, thank you for the opportunity to present the views of 
the Department of the Interior on S. Con. Res. 60, designating the 
Negro Leagues Baseball Museum in Kansas City, Missouri, as America's 
National Negro Leagues Baseball Museum. Since the concurrent resolution 
involves a statement expressing the sentiment of both the Senate and 
the House and would not become law, our comments are limited to 
providing background information for the consideration of the 
committee.
    African-Americans began to play baseball in the late 1800s on 
military teams, college teams, and company teams. They eventually found 
their way to professional teams with white players. Because of racism 
and segregation, laws forced them from these teams by 1900. These black 
players then formed their own units, ``barnstorming'' around the 
country to play anyone who would challenge them.
    In 1920, an organized league structure was formed under the 
guidance of Andrew ``Rube'' Foster--a former player, manager, and owner 
for the Chicago American Giants. In a meeting held at the Paso YMCA, 
the center for black culture and life in Kansas City, Missouri, he and 
a few other Midwestern team owners joined to form the Negro National 
League. The Kansas City Monarchs were charter members of that league. 
Rival leagues were soon formed in eastern and southern states, bringing 
the thrills and innovative play of black baseball to major urban 
centers and rural countryside in the United States, Canada, and Latin 
America.
    The leagues maintained a high level of professional skill and 
became centerpieces for economic development in many black communities. 
The Kansas City Monarchs introduced night baseball five years before 
the major leagues did and won their first Negro Leagues World Series 
title in 1924. In 1947, Major League Baseball's Brooklyn Dodgers 
recruited Jackie Robinson from the Kansas City Monarchs. When he left 
the Monarchs to move to New York, Robinson became the first African-
American in the modem era to play on a Major League roster. While this 
historic event was a key moment in baseball and civil rights history, 
it prompted the decline of the Negro Leagues. The best black players 
were now recruited for the Major Leagues, and black fans followed. The 
last Negro Leagues folded in the early 1960s, but their legacy lives on 
through the surviving players and the Negro Leagues Baseball Museum 
(NLBM).
    Through the inspiration of Horace M. Peterson III (1945-1992), 
founder of the Black Archives of Mid-America, a group of local 
historians, business leaders, and former baseball players came together 
to create the Negro Leagues Baseball Museum in the early 1990s. It 
functioned out of a small, one-room office in the Lincoln Building, 
located in the Historic 18th & Vine Jazz District of Kansas City. The 
museum opened in 1991 as a tribute to some of baseball's best unknown 
players. In 1994, it expanded to a 2,000 square-foot space in the 
Lincoln Building.
    During the late 1990s, plans were underway by city officials to 
create a new home to showcase Kansas City's jazz heritage and to 
revitalize the Historic District. A new facility was built to host the 
new American Jazz Museum and a new, permanent, expanded home for the 
Negro Leagues Baseball Museum. This new 50,000 square-foot building 
opened in September 1997 and the Baseball Museum opened in November. It 
has welcomed several thousand visitors, including school groups and 
dignitaries. The NLBM also has developed a traveling exhibit to help 
bring the history of black baseball to people outside Kansas City.
    The NLBM was created to remember the often-forgotten stories of 
legendary athletes who built a baseball league in the midst of 
segregation and helped make baseball one of America's national 
pastimes. It was conceived as a museum to preserve and interpret the 
legacy of Negro Leagues Baseball, telling the complete story of the 
average players to the superstars. It tells the story of a vibrant and 
compelling center of American history that has not been told before. 
The National Baseball Hall of Fame, in Cooperstown, New York, 
recognizes baseball's greatest players. However, the NLBM provides 
special recognition to those Negro Leaguers who have been honored in 
Cooperstown.
    Mr. Chairman, that concludes my statement. I would be pleased to 
answer any questions you or other members of the subcommittee may have.

                              ON H.R. 2107

    Mr. Chairman and members of the subcommittee, thank you for the 
opportunity to appear before you today to present the Department of the 
Interior's views on H.R. 2107, a bill to amend Public Law 104-329 to 
modify authorities for the use of the National Law Enforcement Officers 
Memorial Maintenance Fund. The Department supports enactment of this 
legislation.
    H.R. 2107 would amend Section 201 of Public Law 104-329, dated 
October 20, 1996. It would authorize the Secretary of the Interior to 
enter into a cooperative agreement with the Law Enforcement Officers 
Memorial Fund, Inc., a nonprofit corporation, to maintain and repair 
the National Law Enforcement Officers Memorial in Washington, D.C., to 
periodically add names of officers who have died in the line of duty to 
the memorial, to provide security for the memorial site, and to 
disseminate information regarding the memorial to the general public. 
It also would transfer all amounts in the National Law Enforcement 
Officers Memorial Maintenance Fund (Maintenance Fund) to the 
corporation.
    Public Law 98-534 authorized the National Law Enforcement Officers 
Memorial Fund, Inc. to establish the National Law Enforcement Officers 
Memorial. The memorial recognizes the sacrifice of law enforcement 
officers and their families in preserving public safety and was 
dedicated on October 15, 2001. Section 201 of the Commemorative Coin 
Act of 1996 (Act) established the Maintenance Fund, a revolving fund to 
be administered by the Secretary of the Interior, to deposit the 
surcharges from the sale of 500,000 commemorative silver dollars. 
Approximately $1.428 million was raised from the sale of these coins. 
These funds were to be used for adding names to the memorial wall, 
educating the public via the dissemination of information about the 
memorial and law enforcement, maintaining and repairing the memorial, 
and other memorial programs developed by the National Law Enforcement 
Officers Memorial Fund, Inc.
    The administration of the Maintenance Fund and other provisions of 
the Act were appropriate for the management of the memorial at the time 
the Maintenance Fund was established. However, with the completion of 
the memorial and the delineation of responsibilities for memorial 
programs that have occurred between the National Law Enforcement 
Officers Memorial Fund, Inc. and the National Park Service over the 
years, it is appropriate to transfer the authority from the Secretary 
of the Interior to the National Law Enforcement Officers Memorial Fund, 
Inc. to manage the Maintenance Fund. This organization is one of the 
most valued partners the National Park Service works with today.
    Mr. Chairman, that concludes my remarks. I would be pleased to 
answer any questions you or other members of the Subcommittee may have.

    Senator Akaka. Thank you very much, Mr. Murphy. I do have 
some questions for you and I will limit the questions to S. 
1288.
    Mr. Murphy. Sure.
    Senator Akaka. I appreciate your testimony in support of S. 
1288. The bill authorizes the appropriation of such sums as may 
be necessary to carry out the activities authorized. In terms 
of providing funding for this new authority, do you envision 
the need for funds appropriated specifically for this authority 
each year or could you use park operational funds or fee 
revenues?
    Mr. Murphy. Yes, I think we certainly could use fee 
revenues and park operation funds if so authorized. There would 
not necessarily have to be an authorization or an appropriation 
every year for this bill, for the provisions of this bill to be 
carried out. In fact, if the provisions were now in place the 
National Park Service of course would be using funds that it 
has currently to work inside and outside the park to manage its 
natural resources.
    Senator Akaka. In your testimony you state that there is a 
broad need for this authority and your informal survey has 
already identified over 60 parks with projects that could 
benefit. Clearly, the need will likely exceed the amount of 
available funds. How will you prioritize these projects? Will 
individual park superintendents have authority to spend 
operational funds or will the decisions be made on a regional 
or national level?
    Mr. Murphy. Well, some decisions are certainly made on a 
regional or national level, but each park does have its own 
budget and sets particular priorities, particularly for 
management of its natural and its cultural resources, and will 
be able to make decisions about whether or not funds should be 
expended inside or outside the park as well.
    We also have the natural resources challenge. We have our 
vital signs program, which will help us set priorities for the 
entire system. So our goal is, even though we are not there 
yet, our goal is to identify those areas that are in most need 
of management of their natural resources inside and outside the 
park and hopefully set some system-wide goals and priorities as 
well. But we always want to give our managers on the ground the 
flexibility to make those decisions as well because they are as 
close to the ground as you can possibly get and know how to 
make those decisions.
    Senator Akaka. Well, I thank you for your responses. I do 
have some written questions here from Chairman Thomas, but I 
will submit them for the record for your response to him.
    Mr. Murphy. Thank you, Mr. Chairman.
    Senator Akaka. Otherwise I have no further questions. Mr. 
Murphy, I want to thank you for the support and for your 
responses and look forward to moving this bill as quickly as we 
can.
    Mr. Murphy. Thank you, Mr. Chairman.
    Senator Akaka. I also have a statement here by Senator 
Wyden that I would like to insert in the record.
    [The prepared statement of Senator Wyden follows:]

     Prepared Statement of Hon. Ron Wyden, U.S. Senator From Oregon

    S. 1288 is based on the already very successful projects done by 
the Forest Service and Bureau of Land Management under the cooperative 
watershed restoration authority folks commonly refer to as ``the Wyden 
Amendment.'' This authority allows the agencies to enter into 
cooperative land restoration agreements with their neighbors that 
benefit the federal lands.
    The National Parks Service tells me that if they have to wait until 
the weeds hit the Parks before treatment begins then the costs for 
treatment rise exponentially and the probability of beating the weeds 
back drop exponentially. This bill will leverage time and dollars--
three for every federal dollar spent--to benefit our National Parks.
    I look forward to the Administration's testimony and to swift 
passage of this legislation.

    Senator Akaka. May I call to the desk panel two: The 
Honorable Robert Letourneau, New Hampshire State Senator from 
Concord, New Hampshire; also Mr. John Jordan ``Buck'' O'Neil, 
chairman, Negro Leagues Baseball Museum, Kansas City, Missouri; 
and Emily Wadhams, vice president for public policy, National 
Trust for Historic Preservation.
    I just want you to know you are welcome, it is a great 
pleasure to have all of you here, and that we will place all of 
your full statements in the record and you may summarize your 
statements at this time.
    May I call on Senator Letourneau.

   STATEMENT OF BOB LETOURNEAU, NEW HAMPSHIRE STATE SENATOR, 
                          CONCORD, NH

    Mr. Letourneau. Thank you, Mr. Chairman. I appreciate the 
opportunity to speak here today. My name is Senator Bob 
Letourneau. I represent District 19, State of New Hampshire. 
Today I am testifying before your committee as the chairman of 
the New Hampshire Civil War Memorial Commission. I would like 
to commend Senator Gregg, Senator Sununu, Representative 
Bradley, and Representative Bass for bringing this legislation 
forward.
    The Civil War Memorial Commission's mission is threefold: 
first, to establish a monument in honor of the sons and 
daughters of New Hampshire who served at the Battle of Antietam 
on September 17, 1862; second, to establish a fund for the 
perpetual care of the New Hampshire Civil War monuments at 
Gettysburg, Antietam, and other Civil War sites as the 
commission deems necessary; third is to develop Civil War 
education programs, resources, and related educational 
opportunities for the benefit of New Hampshire school children.
    After establishing the commission in 2000 following a year 
of study on this issue, and with the understanding it would 
take a significant amount of time to develop and build a 
monument, we spent the following year establishing 
subcommittees to develop plans concerning the three areas to be 
addressed by the commission. The next 2 years were spent on the 
development of criteria for the monument, fundraising ideas, 
educational programs.
    It was during this period of time that the commission 
communicated with the park superintendent with regards to what 
would be an acceptable monument and an acceptable design and 
the location a proposed monument could occupy. There were 
several visits made to the park to verify location, design, and 
support and to keep the superintendent up to date on the 
commission's progress.
    When we learned that Federal authorization in the form of 
legislation was necessary to complete our project, we contacted 
our congressional delegation and bills were filed during the 
108th Congress, but because of the heavy workload these bills 
did not receive a hearing, and this is what brings us here 
today.
    On the dawn of September 17, 1862, arrived the mighty 
armies of Lee and MacLellan who were about the clash outside a 
small town of Sharpsburg, Maryland, in what has become known as 
the Battle of Antietam. New Hampshire men fought courageously 
as members of the Fifth, Sixth, Ninth Volunteer Regiments. The 
members of the Sixth and Ninth were particularly heroic when 
they attempted to cross what is known as Burnside's Bridge. The 
Fifth, which had the greatest losses in the Civil War, were led 
by Colonel Cross of Lancaster, New Hampshire, in an area known 
as the Sunken Road.
    Unfortunately, these brave men who fought and died in the 
Battle of Antietam do not have a State marker on the field to 
signify their sacrifices. As the 150th anniversary of the Civil 
War is approaching, I ask that this committee correct an 
unfortunate oversight and allow us to bring deserved 
recognition to these soldiers and the State of New Hampshire by 
deciding favorably on S. 748 and H.R. 1084. I ask that my full 
written testimony be submitted into the record.
    Thank you so much.
    [The prepared statement of Mr. Letourneau follows:]

  Prepared Statement of Bob Letourneau, New Hampshire State Senator, 
                  Concord, NH, on S. 748 and H.R. 1084

    Chairman Thomas and Members of the Committee, my name is Bob 
Letourneau; I am a State Senator and represent New Hampshire's 19th 
District.
    I testify before you today as the Chairman of the New Hampshire 
Civil War Memorials Commission. The Commission's membership consists of 
Members of the New Hampshire Legislature, the Civil War Round Table, 
the Sons of the Union Veterans, the New Hampshire Veterans Association, 
our state curator and two members of the general public. Our mission is 
three fold,
    First, to establish a monument at Antietam in honor of our sons 
and. daughters who served there at the battle of Antietam on September 
17, 1862. Second is to establish a fund for the perpetual care of NH 
Civil War monuments at Gettysburg, Antietam and other Civil War sites 
as the Commission deems necessary. Our third goal is to develop Civil 
War educational programs, resources and related educational 
opportunities for the benefit of New Hampshire school children.
    After establishing the Commission in 2000, following a year of 
study concerning the issue, and with the understanding that it would 
take a significant amount of time to develop and build the monument, we 
spent the following year establishing several subcommittees to develop 
the plan to address the various issues with this legislation. The next 
two years were spent on the development of an RFP for artists to submit 
their proposals to the Commission for the monument. It was during this 
period of time that the Commission maintained communication with the 
Park Superintendent with regards to what would be acceptable and what 
location the proposed monument would occupy. There were several visits 
made to the Park by members of the Commission to verify location and 
support.
    It was at this time that we learned that federal authorization in 
the form of legislation was necessary far a monument to be placed in 
Antietam National Battlefield Park and to complete the project. Our 
Congressional Delegation filed bills during the 108th Congress, but 
because of the heavy workload these bills did not receive a hearing.
    This is why I am here today. I would like to commend Senators Gregg 
and Sununu, and Representatives Bradley and Bass for bringing forward 
this very important legislation.
    As the dawn of September 17, 1862, arrived the mighty armies of Lee 
and McClellan were about to clash just outside the small town of 
Sharpsburg, Maryland in what has become known as the battle of 
Antietam. This battle, greatly underestimated by the generals in 
charge, became the bloodiest day in American military history. 120,00 
Americans fought this one-day encounter with a loss of over 23,000 
dead, wounded or missing. One out of every four men in action was a 
casualty. During the height of this battle one American died every 
second the clocked ticked. The battle raged for 12 to 14 hours, only 
darkness ending the struggle.
    New Hampshire's men fought courageously as members of the 5th, 6th, 
and the 9th volunteer regiments. The members of the. 6th and 9th were 
particularly heroic when they attempted to cross what is known as 
Burnside's Bridge. The. Fifth which had the greatest losses were led by 
Colonel Cross of Lancaster in the area known as the Sunken Road. 
Unfortunately, these brave men who fought and died in the Battle of 
Antietam do not have a marker on the field to signify their sacrifice.
    S. 748 and H.R. 1084 would authorize the establishment of a 
Memorial at Antietam National Battlefield for the New Hampshire 
soldiers who fought in this historic battle. Importantly, this bill 
does not require any federal, state or local municipality to finance 
the cost of construction or maintenance of the monument. Any monument 
built and maintained at the Antietam National Battlefield Park would be 
entirely paid for by private sources.
    In closing, I would like to say that all soldiers who fought in the 
Battle of Antietam deserve recognition of their sacrifice and the 
volunteer soldiers of New Hampshire have gone too long without a 
lasting monument. These men exemplified the steadfast bravery that is 
the hallmark of American soldiers across generations, On behalf of the 
citizens of New Hampshire I ask you to allow New Hampshire to furnish a 
proper monument to these commendable Americans.
    As the 150th anniversary of the Civil War is approaching, I ask 
that this Committee correct an unfortunate oversight and pass S. 748 
and H.R. 1084.
    I ask that my full written testimony be submitted for the record.
    Thank you.

    Senator Akaka. Thank you very much, Senator.
    May I now call on Ms. Wadhams, please.

        STATEMENT OF EMILY WADHAMS, VICE PRESIDENT FOR 
        PUBLIC POLICY, THE NATIONAL TRUST FOR HISTORIC 
                          PRESERVATION

    Ms. Wadhams. Thank you, Senator, for the opportunity to 
bring to this subcommittee the views of the National Trust for 
Historic Preservation in support of S. 431, the Presidential 
Sites Improvement Act. Let me begin by acknowledging Chairman 
Thomas's record of support for historic preservation. His 
commitment to the important issues facing our heritage is 
evidenced by raising the Presidential sites bill to the 
subcommittee's agenda today.
    The stewardship of the country's major historic places such 
as these goes to the very heart of the National Trust's 1949 
Congressional charter as a private nonprofit membership 
organization dedicated to protecting the irreplaceable. This 
mission includes Presidential sites across the country, three 
of which we operate as part of our inventory of the National 
Trust Historic Sites. They include Virginia's Montpelier, the 
home of James Madison, the Woodrow Wilson House, and President 
Lincoln's summer cottage at the Soldier's Home here in 
Washington.
    All too often, chronic underfunding of historic sites leads 
to deferred maintenance and results in depriving the Nation of 
its most basic patrimony, our heritage. Arguably, nowhere is 
this more important than caring for America's Presidential 
legacy, from the iconic homes of our greatest leaders to some 
of the humble places where they were born.
    Senator DeWine, along with Senators Durbin, Alexander, 
Bunning, and Smith understand the importance of this 
responsibility and their bill would target these sites in 
particular with matching grants to address urgent maintenance 
needs, modernization and accessibility requirements, 
interpretive improvements for greater public appreciation.
    This bill would direct a relatively modest amount of 
funding to the places that need it most and through the 
matching requirement help invigorate efforts to raise the 
private dollars that are essential to operating these sites. 
Awards made available under S. 431 would not be for federally 
owned Presidential sites or for operating costs. These project-
based funds would only be available to locations where the need 
is greatest, those run by often financially struggling State 
and local governments, private groups, schools, and 
foundations.
    The American Association for State and Local History 
documents 133 Presidential historic sites, only 45 run by the 
Federal Government. So about two-thirds of the inventory falls 
into the categories covered by this bill, including 23 
Presidential sites that are State-run. Most of this inventory 
is pretty modest and just staying open is often a major 
achievement.
    Senator DeWine's bill is important now more than ever as 
two significant national trends converge. First, funding for 
historic preservation, especially at the State and local level, 
has been cut to its bare bones. This coincides with an equally 
tough climate for foundation giving and Federal dollars. It is 
important to note that most of the Presidential sites meet 
their annual operation budgets through admission fees, 
typically ranging from between $5 to $7 donations, memberships, 
and fundraisers.
    Second, more and more Americans are choosing domestic 
travel designations with historic and cultural themes. The 
proliferation of national heritage area designations and 
requests under the purview of this committee is evidence of 
this trend. If a Presidential site is unable to provide the 
public with compelling exhibits, proper access, safety and 
comfort, and an intact adequately maintained historic fabric, 
then it risks being bypassed by this national trend.
    Let me provide you with a few examples that reflect the 
conditions affecting our many Presidential historic sites. The 
National Trust survey in 2001 to 2003 of State preservation 
funding showed that Ohio Historical Society's budget was cut by 
$2.4 million or 17 percent in that 12-month period alone. 
During the same period, annual appropriations for the Ohio 
Historic Preservation Office were reduced by nearly $86,000 or 
20 percent. There are three State-run Presidential sites in 
Ohio affected by these cuts: Ulysses Grant's birthplace and 
boyhood homes and the Warren Harding home.
    In Vermont where I was State historic preservation officer 
and responsible for the management of the State-owned sites, 
already inadequate budgeting for these sites was cut last year 
by 2 percent. Visitation was also down due to poor weather 
conditions, resulting in an $80,000 shortfall. Budget cuts are 
in the works again, reflecting a steady decline in State 
funding.
    Its two Presidential sites honoring Chester Arthur and 
Calvin Coolidge have felt the effects. The Coolidge site is a 
national historic landmark. It is where he was born, where he 
was raised, where he was sworn in in the middle of the night 
upon hearing of the death of President Harding, and it is also 
where he is buried. There is no Federal site honoring Calvin 
Coolidge and critical maintenance and fire safety needs are 
being neglected.
    Juxtapose the declining resources at every level with the 
increasing and very specialized needs of these sites. 
Documents, furniture, artifacts require special care. They must 
be done accurately. Some exhibits, for instance at the home of 
Rutherford B. Hayes, which opened to the public in 1916, have 
not been updated for 35 years. The private foundation that runs 
this needs $300,000 to $400,000 to get this exhibit open. The 
former mansion of James Garfield used to be open to the public 
every weekday. Now it is open only on weekends and by 
appointment.
    So in conclusion, even though the $5 million authorized by 
the bill will not solve the problem of caring for these 
national treasures, it is the beginning of a solution. We 
believe that preserving the legacy of America's chief 
executives, especially through these smaller, lesser known 
places that are not federally owned, is a top priority. Given 
the examples I have included here and the countless others 
around the country, there is clearly an unmet need.
    So with S. 431 we can begin to address this problem and 
plan for passing on our Presidential heritage, every part of 
it, to future generations. Thank you very much.
    [The prepared statement of Ms. Wadhams follows:]

Prepared Statement of Emily Wadhams, Vice President for Public Policy, 
        The National Trust for Historic Preservation, on S. 431

    Thank you, Chairman Thomas, and members of the Subcommittee for the 
opportunity to bring you today the views of the National Trust for 
Historic Preservation in support of S. 431, the Presidential Sites 
Improvement Act.'' Let me begin by acknowledging the Chairman's long 
record of support for historic preservation. I look forward to 
continuing our close working relationship on issues of mutual concern. 
Your commitment to the important issues facing our heritage is evinced 
by raising the Presidential Sites Bill to the Subcommittee's agenda. 
The stewardship of the country's major historic places such as these 
goes to the very heart of the National Trust's 1949 Congressional 
charter.
    The National Trust is a private, nonprofit membership organization 
dedicated to protecting the irreplaceable. This mission includes 
Presidential sites across the country, three of which we operate as 
part of our inventory of the ``National Trust Historic Sites.'' Those 
include Virginia's Montpelier, the home of James Madison that is 
currently undergoing a massive restoration; the Woodrow Wilson House in 
Washington, DC; and President Lincoln's summer cottage at the 
``Soldiers' Home'' also in this city. As recipient of the Humanities 
Medal, the Trust provides leadership, education, and advocacy to save 
America's diverse historic places and revitalize communities. Its staff 
headquartered in this city, six regional offices, and 26 Historic Sites 
work with the Trust's 200,000 members and thousands of local community 
groups in all 50 states.
    All too often in our efforts to protect the irreplaceable, the 
chronic under-funding that leads to deferred maintenance deprives the 
nation of its most basic patrimony--our heritage. Whether postponed 
maintenance results in the loss of historic fabric or prevents 
important artifacts and exhibits from reaching the public, good 
preservation and proper interpretation are integral to our 
responsibility for the stewardship of cultural resources. Arguably, 
nowhere is this more important than caring for America's Presidential 
legacy from the iconic homes of our greatest leaders to some of the 
humble places in which they were born. Senator DeWine along with 
Senators Durbin, Alexander, Bunning, and Smith understand this 
responsibility, and through S. 431, would target these sites in 
particular with matching grants to address urgent maintenance needs, 
modernization and accessibility requirements, and interpretive 
improvements for greater public appreciation of each location.
    More importantly, the bill would direct a relatively modest amount 
of funding to the places that need it most and--through a matching 
requirement--help invigorate efforts to raise the private dollars that 
are essential to meeting the needs of most historic sites. Awards made 
available under S. 431 would not go to federally owned Presidential 
sites nor would they be used for operating costs. Project-based funds 
would only be available to locations where the need is often greatest--
those that are run by often financially struggling state and local 
governments, private groups, local historic preservation organizations, 
schools, and foundations. The American Association for State and Local 
History documents 133 Presidential historic sites nationwide with only 
45 run by the Federal government. So, about two-thirds of the inventory 
falls into the categories covered by the bill including 23 Presidential 
sites that are state-run. Most of this inventory is pretty modest and 
just staying open is often a major achievement for many sites.
    Moreover, the bill would place added emphasis on the smaller, 
lesser-known, Presidential site by reserving 65 percent of available 
funds for locations that have a three-year annual operating budget 
averaging under $700,000. It is easy to assume--simply by virtue of 
being part of our Presidential heritage--that a related site is well-
funded and adequately endowed. This is not necessarily the case, 
particularly among the places that this bill would emphasize--those 
that are immensely important to telling the complete story of a chief 
executive's historical role, but not traditionally associated with the 
prominence of Mount Vernon or Monticello. These include law offices, 
retreats, birthplaces, burial sites, memorials, and tombs.
    Senator DeWine's bill is important now more than ever as two 
significant national trends converge. First, funding for historic 
preservation, especially at the state and local level, has been cut to 
its bare-bones. This coincides with an equally tough climate for 
foundation giving and federal dollars that would augment the cost of 
maintaining and operating an historic site. It is important to note 
that most of the Presidential sites covered by S. 431 meet their annual 
operating budgets through admission fees typically ranging between $5 
to $7, donations, memberships, and fundraisers.
    Second, more and more Americans are choosing domestic travel 
destinations oriented toward historic and cultural themes. The 
proliferation of National Heritage Area designations and requests under 
your purview is evidence of this trend. If a Presidential site--
especially the smaller, lesser-known location that this bill would 
recognize--is unable to provide the public with compelling exhibits; 
proper access, safety, and comfort; and intact, adequately maintained 
historic fabric, then it risks being bypassed by this trend and further 
compromised.
    Let me provide you with a few examples that reflect the conditions 
affecting many historic sites, especially those 23 Presidential sites 
that are state-owned. The National Trust's survey of state historic 
preservation funding shows that from FY'01 to FY'02 the Ohio Historical 
Society's budget has been cut by $2.4 million (17 percent). During the 
same period, annual appropriations for the Ohio Historic Preservation 
Office were reduced by nearly $86,000 (20 percent). There are three 
state-run Presidential sites in Ohio, Ulysses Grant's birthplace and 
boyhood homes, and the Warren Harding home.
    In Vermont, where I was the State Historic Preservation Officer, 
the already inadequate budget for state sites was cut by 2 percent last 
year while visitation was also down, resulting in a $80,000 shortfall. 
Budget cuts are in the works again, reflecting a steady decline in 
funding. Its two state-run Presidential sites honoring Chester Arthur 
and Calvin Coolidge have felt the effects. The Coolidge site is a 
National Historic Landmark. Is an extraordinary early 20th Century Hill 
town--Plymouth Notch--where Coolidge was born, raised, dramatically 
sworn in by his father in the middle of the night after hearing of the 
sudden death of President Harding, and where he was buried. There is no 
federal site honoring Calvin Coolidge. Critical maintenance and fire 
safety needs are not being addressed. In Virginia, home to Washington 
Mill State Park where the first President operated Mount Vernon's 
milling operations, state funding for the Department of Historic 
Resources was reduced by about 24 percent over the past three years. As 
a result agency staffing has been pared down and funding for state 
historic preservation grants was eliminated for FY'04. And in North 
Carolina, where the state maintains the Polk Memorial in Pineville, the 
North Carolina State Historic Preservation Office has suffered a loss 
of $252,000 federal dollars and $118,000 in state funds totaling 
$370,000.
    Juxtapose the declining resources at every level with the 
increasing and very specialized needs of many Presidential sites. 
Books, documents, furniture, and artifacts all require special care 
because of their age and significance, and all work must be done with a 
detailed eye to historical accuracy. This is often costly. Some 
exhibits at the home of Rutherford B. Hayes, which opened to the public 
in 1916, have not been updated in 35 years. The private foundation that 
runs the site has a noteworthy collection of Presidential memorabilia 
that should be displayed, but it lacks the $300,000 to $400,000 needed 
to construct a new exhibit. The former mansion of James A. Garfield 
used to be open to the public every weekday all year long. Now, it is 
accessible only on weekends or by appointment.
    The Benjamin Harrison house in Indianapolis has more urgent 
requirements. Its sole bathroom and outdated plumbing cannot 
accommodate the hundreds of schoolchildren that its director 
desperately wants to come see the home. It lacks the $150,000 for 
making these renovations and the added money required for rehiring its 
librarian and displaying Harrison's books that are currently in 
storage. In addition, the ongoing need to conserve items can hit 
budgets hard. The James K. Polk ancestral home in Tennessee recently 
had to spend nearly $8,000 to preserve garments worn by his First Lady. 
Lastly, many Presidential sites are not handicapped accessible. The 
Warren G. Harding home has had to defer plans for an educational 
facility and staff office space until it is ADA compliant. Such 
situations are common across the county.
    Even though the $5 million authorized by the bill will not solve 
the problem of caring for these national treasures, it is the beginning 
of a solution--with historic sites a little goes a long way. The 
National Trust believes that preserving the legacy of America's chief 
executives--especially through the smaller, lesser known places that 
are not federally owned--is a top priority. Given the examples I have 
included in my statement and the countless others around the country, 
there is clearly an unmet need that must be addressed. There are 
significant costs associated with operating and maintaining 
Presidential sites and opening them up to the public often leaves 
little else for repair and renovation. The result can lead to deferred 
maintenance, loss of essential historic elements, and stagnant exhibits 
that compromise the vitality essential to a well-run historic place and 
also compromise visitorship and opportunities for heritage tourism. 
With S. 431, we can begin to address this problem and plan for passing 
on our Presidential heritage--every part of it--to future generations.

    Senator Akaka. Thank you for your statement, Ms. Wadhams.
    I would like to pass it over to Chairman Talent to 
introduce his constituent.

        STATEMENT OF HON. JAMES M. TALENT, U.S. SENATOR 
                         FROM MISSOURI

    Senator Talent [presiding]. I thank you for that, Senator, 
and thank you for chairing the committee. I have been pressed 
into service here in Mr. Thomas's absence and glad to do it.
    I just want to take a minute before introducing Mr. O'Neil 
to just put a little bit in the record about S. Con. Res. 60, 
which is the resolution to designate the Negro Leagues Baseball 
Museum in Kansas City, Missouri, as America's National Negro 
Leagues Baseball Museum.
    We are going to hear from Mr. O'Neil in a minute. He said 
something about the Negro Leagues I think is very profound. He 
said: ``The story of the Negro Leagues is one of sheer 
determination and devotion.'' There is a long history of the 
Negro baseball leagues in Kansas City. On February 13, 1920, at 
the Paseo YMCA in Kansas City, Andrew ``Rube'' Foster 
successfully organized the first Negro baseball league, which 
was called the Negro National League. Three years later the 
Eastern Colored League was formed and the first Negro World 
Series was played.
    For more than 40 years, Negro Leagues teams played the 
highest level of baseball in front of large crowds throughout 
rural and urban America, often in front of bigger crowds than 
the local major league team was playing in front of. Many of 
baseball's most noted stars of the past 60 years got their 
beginnings in the Negro Leagues. Such greats as Hank Aaron, 
Ernie Banks, Roy Campanella, Larry Doby, Willie Mays, Satchel 
Paige, and of course Jackie Robinson brought the fast-paced and 
highly competitive brand of Negro Leagues baseball to the major 
leagues.
    In 1990 the Negro Leagues Baseball Museum was founded in 
Kansas City, Missouri, to honor those individuals who played in 
the Negro baseball leagues because of segregation in America. 
The museum in Kansas City is the only public museum in the 
Nation that exists for the exclusive purpose of interpreting 
the experiences of the players in the Negro Leagues from 1920 
through 1970.
    Today the museum seeks to educate a diverse audience 
through its comprehensive collection of historical materials, 
important artifacts, and oral histories of the participants in 
the Negro Leagues and the impact that segregation played in the 
lives of these individuals and their fans. A great opportunity 
exists to use these invaluable resources to teach the Nation 
through onsite visits, traveling exhibits, classroom 
curriculum, distance learning, and other educational 
initiatives, so that people can learn about the honor and the 
courage and the sacrifice and the triumph in the face of 
segregation that those African Americans who played in the 
Negro Leagues displayed.
    So the resolution would authorize the designation of the 
Negro Leagues Baseball Museum in Kansas City as America's 
National Negro Leagues Baseball Museum and would support them 
in their efforts to recognize and preserve the history of the 
Negro Leagues.
    I think the full story of the Negro Leagues should be 
preserved for generations to come and this is a way that we in 
the Federal Government can help do it. It is an honor for me, I 
will say to Senator Akaka, and I think it is going to be a 
great pleasure for the committee, to hear John Jordan ``Buck'' 
O'Neil, who is a true American treasure.
    Now, Buck, let me just say a few words about you before you 
give us your statement. His illustrious baseball career spans 7 
decades. It is still running. It has helped make him one of the 
game's foremost authorities and one of its greatest 
Ambassadors. As a first baseman and manager, Buck was active in 
the Negro Leagues from 1937 to 1955, his career only 
interrupted by a 3-year stint in the Navy from 1943 to 1945.
    Buck's achievements as a player include leading his team, 
the Kansas City Monarchs, to a Negro American League title and 
a date with the Homestead Grays in the 1942 Negro World Series. 
In the series Buck hit .353, he led the Monarchs to a four-game 
sweep of the Grays. Buck has a career batting average of .288, 
including four .300-plus seasons. He won a batting title in 
1946, hitting .353. He was selected to participate in the East-
West All-Star Classic five times, barnstormed with the Satchel 
Paige All-Stars in 1946--Buck, I almost wish you would just not 
comment on the resolution and tell us about barnstorming with 
Satchel Paige, because I am sure that would be--and he played 
exhibition games against the likes of the Bob Feller All-Stars.
    In 1948 Buck succeeded Frank Duncan as manager of the 
Monarchs and he continued to manage them until 1955. He led the 
team to numerous league titles, sent more Negro League veterans 
to the major leagues than any other manager in baseball 
history. Those players include Ernie Banks, Elston Howard, 
Connie Johnson, Sweet Lou Johnson, and Satchel Paige.
    Buck was hired as a scout by the Chicago Cubs in 1956. He 
became the first African America coach in the major leagues in 
1962 when he was still with the Cubs. As a scout, he discovered 
such superstars as Ernie Banks, Lou Brock--being a St. Louis 
baseball fan, I am especially pleased that you discovered Lou 
Brock--and Joe Carter.
    In 1988, after more than 30 years with the Cubs, Buck 
returned home to Kansas City to scout for the Kansas City 
Royals. Today he serves as chairman of the Negro Leagues 
Baseball Museum Board of Directors. He served as a member of 
the Baseball Hall of Fame Veterans Committee. He continues to 
lead the charge to induct deserving Negro Leaguers into the 
Hall of Fame.
    The work of Buck and others has led the Baseball Hall of 
Fame to announce that it will hold a special election of Negro 
Leaguers and pre-Negro League candidates to the Hall of Fame in 
2006, and there is little doubt that one of the individuals who 
will be honored in July 2006 in Cooperstown is none other than 
the face of the Negro Leagues and one of baseball's greatest 
Ambassadors, Mr. Buck O'Neil.
    Buck, thanks for being with us. Please.

 STATEMENT OF JOHN JORDAN ``BUCK'' O'NEIL, CHAIRMAN, THE NEGRO 
            LEAGUES BASEBALL MUSEUM, KANSAS CITY, MO

    Mr. O'Neil. Thank you, Mr. Chairman. I ask you to accept my 
oral testimony as part of the record.
    Senator Talent. Nobody would dare object, Buck. Go ahead.
    Mr. O'Neil. I have been to a lot of places and I have done 
a lot of things that I really like doing. Mr. Chairman, I hit 
the home run, I hit the grand slam home run, I hit for the 
cycle. I have had a hole in one in golf. I have done a lot of 
things I like doing. I shook hands with President Truman, shook 
hands with President Clinton, and I hugged Hillary.
    So I have done a lot of things I like doing, but I tell you 
what, I would rather be right here right now talking about the 
Negro Leagues than any place I have ever been in my life, 
because Horace Peterson asked me: Buck, come down to my office; 
I want to talk to you. I said: Yes, sir.
    I got to his office, he said: Buck, let us start a Negro 
League Hall of Fame. I said: No, Horace; I think the fellows 
that should be in the Hall of Fame should be in the Hall of 
Fame at Cooperstown. We do not own a Negro League Hall of Fame.
    He said: What would you suggest? I said: Negro League 
Museum. Actually, we got the museum. We had a room about this 
big, and I paid the rent 1 month and Mr. Motley here, he paid 
it 1 month. His brother, who was an umpire, paid it a month. 
Connie Johnson, baseball player, paid it a month. Some of the 
Monarchs who are still living, we paid the rent.
    He was a councilman at the time, Reverend Cleaver, Kansas 
City. They allocated some money for the 18th and Vine Street 
area and that is where we put this wonderful building that we 
have got now. You have got to come see it, Mr. Senator. You 
have got to come see the Negro Leagues Baseball Museum, because 
it is outstanding.
    We appreciate everything that you are going to do for the 
Negro Leagues Baseball Museum. We need your help. We need it 
and I am sure you are going to do this thing, because the Negro 
League, this is a history that should be told, and we are 
trying to tell it.
    See, Mr. Senator, I am going all over the country trying to 
raise money for the Negro Leagues Baseball Museum. But see, I 
am just 94 years old. Good black don't crack, does it? I am 
just 94 and I am not going to live over 25 more years, so I 
will not be able to run around raising this money. But when you 
do this for us, what it is going to do, now I can get an 
endowment and do something like that to keep this museum going 
for the rest of time.
    I thank you very much for letting us come here and be in 
this room. This room is as big as my little home town, but I 
love being here and I thank you very much.
    [The prepared statement of Mr. O'Neil follows:]

Prepared Statement of John Jordan ``Buck'' O'Neil, Chairman, The Negro 
              Leagues Baseball Museum, on S. Con. Res. 60

    Mr. Chairman, Senator Akaka, and other members of the Subcommittee 
on National Parks, thank you for the opportunity to testify this 
morning on behalf of more than 2600 baseball players who played in the 
Negro Leagues. We support a very important Resolution sponsored by 
Senator Talent, S. Con. Res. 60, which would designate the Negro 
Leagues Baseball Museum in Kansas City, Missouri, as America's National 
Negro Leagues Baseball Museum.
    I am John Jordan O'Neil. Most people call me ``Buck''. I am the 
grandson of a slave who was owned by the O'Neil family in Florida. 
Because of baseball, I was afforded the opportunity to travel the world 
and see the many faces of racism, some disguised and some not. During 
my 94 years I have learned a lot, but most importantly I have learned 
that love and education can heal all wounds.
    As Chairman of the Negro Leagues Baseball Museum, I have made every 
effort to share with the world the contributions that Negro Leagues 
players made to our National Pastime and more importantly to society.
    Because we were black and because it was the early 1900's, we were 
not allowed to play organized baseball with the white players. 
Newspaper accounts across the land verify that we played good ball, 
entertained crowds, fed our families and proudly lived our separate 
lives.
    In early 1920, Andrew ``Rube'' Foster led a campaign for a Negro 
baseball league. At an historic two-day meeting at the Paseo YMCA in 
Kansas City, Missouri, Negro team owners formed the first Negro League, 
the Negro National League, which included 8 teams.
    African-American players from all parts of the country were signed 
to contracts, paid salaries, and played a full season's schedule, which 
culminated with playoffs and ultimately a champion. Success of this 
first league spurred the establishment of others including the Eastern 
Colored League in 1923, which provided the opportunity for the first 
Negro Leagues World Series in 1924 and later launched the famed East-
West All-Star match that drew some 50,000 fans annually.
    In the Negro Leagues we were known for playing an aggressive style 
of baseball that relied on the hit-and-run, squeeze plays, steals, 
double steals, taking the extra base and even hidden-ball tricks. The 
athletes (40% of whom were college educated), managers, and the 
businessmen behind the Leagues were all entrepreneurs who hustled, 
entertained and played for the love of the game. Negro Leaguers played 
the first night games under lights 5 years before the Major Leagues. 
They dressed and drove in style and were admired for rising above the 
challenges of the day and their impoverished start.
    In 1896, the United States Supreme Court in Plessy vs. Ferguson, 
found that a Louisiana law mandating separate but equal accommodations 
for blacks and whites on intrastate railroads was constitutional. The 
era of ``Jim Crow'' laws had begun. As a result of this decision, 
blacks were systematically denied access to lodging, restaurants, 
schools, and even drinking fountains. As traveling ballplayers, the 
Negro Leaguers were often denied food and accommodations after we had 
entertained thousands of fans, both black and white, with our 
extraordinary skills and showmanship on the field.
    One of the most powerful symbols of racism during this time of 
segregation was chicken wire. Simple chicken wire was stretched across 
the stands to separate the black fans from the whites at Major League 
games. Yet, during Negro League games blacks and whites sat side-by-
side.
    This is a history that has never been taught in our schools. The 
details of segregation have been neglected and even today some are 
difficult to believe. The pain was great and overcome with sheer 
determination on the part of African-Americans. The curriculum we teach 
at the Museum addresses these transgressions with a gentle explanation 
of a harsh time in our nation's history.
    As proud as we were when Jackie Robinson broke the color-barrier in 
1942, we knew it was the beginning of the end for the Negro Leagues. As 
the best Negro Leaguers were recruited to the Major Leagues, attendance 
dropped in black ballparks as fans flocked to see Jackie, Willie Mays, 
Satchel Paige and other former Negro Leaguers play for their new 
integrated Major League teams. Success for these few players 
accomplished our goal of integrating baseball and paved the way for 
future generations of minority players to put their marks on America's 
greatest game.
    In 1990, the Negro Leagues Baseball Museum effort began through a 
large scale, grass roots, civic and fundraising effort led by citizens 
and baseball fans of greater Kansas City. In 1991 the Museum was opened 
and became the only public museum that exists for the exclusive purpose 
of interpreting the experiences of the players who played in the Negro 
Leagues from 1920 through 1960.
    What we have learned these past 15 years is that people from all 
over the world are hungry to know more about the Negro Leagues and 
their players. Each year we host more than 60,000 visitors in our 
Kansas City museum from all 50 states and many foreign countries. These 
guests linger for hours as they find themselves transported to a 
distant time by our state-of-the-art exhibits which share the heartfelt 
story of the Negro Leagues and their players. In addition to our 
exhibits at the Museum, we take our traveling exhibits to thousands of 
people each year.
    The history we teach provides our students and visitors with 
information they might not otherwise learn. The artifacts we have 
collected help us tell the story. More importantly we continue to break 
down the barriers that existed during the times of segregation. Made up 
of proud, passionate, and intelligent professional athletes, Negro 
Leagues baseball helped to drive social change in a segregated America. 
Today the museum is a tool for improving race relations by sharing this 
overlooked and yet very important history.
    Mr. Chairman and members of the Committee, it is my sincere hope 
that you will support this resolution to designate the Negro Leagues 
Baseball Museum in Kansas City, Missouri, as America's National Negro 
Leagues Baseball Museum. This designation is critical to our ability to 
preserve and display this important time in American history for all 
future generations to learn and enjoy.
    I'd like to take this opportunity to extend my deepest thanks to 
Senator Talent for his passion toward and dedication to the Negro 
Leagues Baseball Museum in Kansas City, Missouri.
    Thank you for the opportunity to testify before you today. I am 
happy to answer any questions you may have at this time.

    Senator Talent. Thank you, Buck, for your testimony.
    I will go ahead and recognize Mr. Akaka, if he has any 
questions. Have you had a chance to ask him already?
    Senator Akaka. Thank you. Thank you so much, Mr. Chairman.
    It is really an honor, Buck O'Neil, for you to be here and 
an honor for us to have you here, and I look forward to this 
resolution that is being proposed to recognize you and the 
Negro Leagues Baseball Museum in Kansas City.
    I have one question for Senator Letourneau. The Park 
Service opposes your bill because of the, and I quote, 
``potential impact and permanent alterations,'' unquote, that 
would be made to the Antietam Battlefield if a New Hampshire 
monument is erected. Do you have a response to the Park 
Service's concern?
    Mr. Letourneau. Yes, sir. We believe that the men who 
fought from New Hampshire have as much right to have a monument 
placed on that field as anybody that has fought in that battle 
has a right to have a monument on that field. We are asking for 
a State monument, not a regimental monument. This would be to 
all of the people from all of the regiments in the State of New 
Hampshire. I do not see how that would alter the landscape 
other than placing a monument there.
    Senator Akaka. Thank you very much.
    Thank you, Mr. Chairman.
    Mr. Letourneau. Thank you. Thank you for the question.
    Senator Talent. Senator DeWine, I know you had an 
opportunity to give a statement before. Would you like to ask 
some questions here? Welcome.
    Senator DeWine. Mr. Chairman, I came here just to testify 
on behalf of my bill, but I saw Buck O'Neil here and I just 
frankly could not resist the opportunity to meet him and to 
listen to his testimony. So we are just delighted to have the 
opportunity to do that, and I know, Mr. Chairman, that we are 
going to try to help him, and members of the Senate who have 
been great admirers of him and his good work with this museum 
are certainly going to try to help him.
    Senator Talent. Well, the museum is a great museum. Maybe, 
Buck, if you know--or if not, we can just ask Bob Kendrick to 
tell us--how many visitors do you have every year already in 
the museum? Do you know offhand?
    Mr. O'Neil. Bob, help me.
    Senator Talent. Bob is the director of marketing with the 
museum. It is Bob Kendrick, K-e-n-d-r-i-c-k, who is the 
director of marketing at the baseball museum.
    Is Don Motley here? I did not see Don.
    Mr. Kendrick. Yes, he is.
    Senator Talent. Do you want to come up? Why do you not come 
on up, too. Don is the executive director.
    The point I am trying to make for the other members of the 
committee is to understand that this baseball museum is already 
de facto America's Negro Leagues Baseball Museum. It is a 
highly successful, very sophisticated, and well funded effort. 
It was not always. As Buck said, 15 years ago you were paying 
the rent, Don. But it is now. So we are not--all we are doing 
is recognizing what has already happened in Kansas City.
    Just tell us a little bit about the museum, if you would.
    Mr. Kendrick. We are talking about an institution that is 
as grassroots an organization as any that you will ever 
encounter, but I think that is the thing that makes it such a 
wonderful institution, the way that it started, the way that it 
has grown. I think, obviously, symbolically, your 
recommendation of designation for this museum serves as a 
wonderful thank-you to the work that guys like Buck O'Neil and 
Mr. Motley, those early on leaders who paid the rent, it is a 
wonderful way to say thank you for the work that you have done, 
thank you for preserving a precious piece of Americana that 
would otherwise go extinct.
    That is the challenge of what we are doing in Kansas City 
with the Negro Leagues Baseball Museum. We are saving a piece 
of American history that otherwise would die when the last 
Negro Leaguer died. As you will discover when you learn this 
story in its entirety, beyond the great baseball players that 
Senator Talent mentioned, this story, baseball, is merely a 
premise for a greater American story. It is a story that must 
be told and must be passed down from generation to generation. 
That is the purpose in which we are serving in Kansas City and 
we have been doing it for 15 years, and I think because of the 
work of Buck O'Neil, Don Motley, and others who have been 
involved, and obviously that dwindling number of Negro League 
players who are still alive, America has grown to be very aware 
and the consciousness level has risen about their 
contributions, not only to the game but to American society.
    Senator Talent. I do not want anybody to think that the 
Negro Leagues were some kind of second class operation. Buck, 
talk a little bit about the economic significance of the Negro 
Leagues. And Don, if you want to also. This was a big business.
    Mr. O'Neil. The Negro League was the third largest black 
business in this country. See, the first was black insurance. 
The white insurance was a ten-cent policy, just enough to bury 
us, but the black insurance--North Carolina Mutual, Atlanta 
Life, Universal--insured our homes, our farms, our crops. They 
made millions. Next, Madam C.J. Walker. Madam C.J. Walker was 
doing this, honey [indicating], 100 years ago. Madam C.J. 
Walker made millions.
    Next, Negro League baseball. All you needed was a bus, a 
couple of sets of uniforms; you could have 20 of the best 
athletes that ever lived. That was Negro League baseball. When 
I first started playing Negro League baseball, 5 percent of 
major league baseball players were high school players, because 
the major leaguers wanted them right out of high school, sent 
them to the minor leagues. But Negro Leagues, 40 percent of 
Negro League ballplayers were college men.
    Senator Talent. There was a close connection between the 
Negro Leagues and the historically black colleges, was there 
not?
    Mr. O'Neil. Yes.
    Senator Talent. I mean, they recruited heavily on those 
campuses.
    Mr. O'Neil. The black colleges were like our minor leagues. 
So they were actually going to school in the school period, 
then they would come and play ball, then they would go back to 
school, go back to classes and go back to teaching. That was 
Negro League baseball.
    Senator Talent. How big a crowd did you play in front of?
    Mr. O'Neil. Pardon?
    Senator Talent. How big a crowd did you play in front of 
typically, Buck?
    Mr. O'Neil. In Washington, D.C., here we outdrew the 
Senators. That is right. We played the Homestead Grays and we 
outdrew the Senators, that is right. Yankee Stadium, 45,000 
people. Chicago, at our all-star game sometimes we outdrew the 
major leagues. The only reason we outdrew the major leagues--we 
always filled up Comiskey Park, 55,000 people. But the major 
leaguers, they could fill it up too, but they had to play in 
other towns, you know what I mean. Like when they played in the 
Cubs' ballpark at Wrigley Field, you could not have that many 
people. At the other park, Fenway, you could not have that many 
people.
    But oh, we filled the ballparks up all over the country, 
because we had something to show them.
    Mr. Kendrick. Senator, I think you will discover as you 
look at the subject matter even greater, the irony in all of 
this is they would fill up ballparks in towns that had black 
and white fans sitting side by side watching, truthfully, 
perhaps the best baseball being played in this country. And 
here is a league born out of segregation that would ultimately 
become the driving force for social change in our country. That 
is why we feel so much compassion about the story and what it 
means in the American fabric, and it is a story that has to be 
preserved.
    We were daring enough to do this at a timeframe when no one 
thought it could be done, particularly at historic 18th and 
Vine, where we are anchored, and now not only have we built a 
successful museum, we have sparked economic development and 
have done that in the same sense in which Negro Leagues 
baseball, as Buck alluded to, impacted urban communities across 
this country during its height. So it is exciting for us to be 
anchored in Kansas City. We are Kansas City's gift, however, to 
the rest of the world. Obviously, this designation would say 
that very proudly, that it is Kansas City's gift to the rest of 
the world.
    Senator Talent. Do you think--go ahead, Don.
    Mr. Motley. Senator, what it boiled down to, this is the 
untold American history. We draw over 50,000 fans a year. We 
have visitors from as far away to Japan, Russia, Italy, Rome, 
just to come in and see this type of a museum that tells this 
untold American history.
    Now we are working with a lot of universities to put 
together a curriculum about this history part.
    Senator Talent. Yes, it has always struck me--and when I 
had the chance to visit--as an example of both the tragedy of 
the times, but also the triumph of the individuals. We were 
having lunch together talking about this, with you guys. I will 
not keep you all afternoon, but elaborate a little bit for the 
record. I do not believe that we would have seen integration of 
major league baseball any time--I mean, as soon as we did, 
without the success and the existence of the Negro Leagues.
    Mr. O'Neil. Senator, when Branch Rickey signed Jackie 
Robinson to that contract, that was the beginning of the modern 
day civil rights movement. I say modern day civil rights 
movement because you know, the civil rights movement was 
started way down in Egypt land. God needed a man, he called 
Moses, did he not? That is what my God did. Oh, yeah, in this 
country people like beautiful tans like Mr. Motley, they were 
under bondage. God needed a man; he called Abe Lincoln, did he 
not? Abe needed some help, God sent him Frederick Douglass. God 
sent him Harriet Tubman, Sojourner Truth. That is what God did.
    Would not let me play major league baseball because of this 
beautiful tan of mine. That is when they sent Branch Rickey. 
When Branch signed Jackie to that contract, that was before 
Brown vs. Board of Education. That was before sister Rosa Parks 
saying, ``I am tired, I ain't going to the back of the bus.'' 
Martin Luther King was a sophomore at Morehouse at the time. 
But that started the ball to rolling.
    That is why when I walk in this building I am seeing some 
of everybody in here. See, the chairman in here, the chairman 
who was sitting right there a while ago, he was not born yet. 
You know, this is a miracle, the greatest country on Earth. I 
have been all over the world, but you cannot beat the U.S. of 
A. You can be anything you want to be. I am living proof of 
that, yes.
    Senator Talent. Well, thank you, Buck and Don and Bob, and 
thanks to our other witnesses, and Senator and Ms. Wadhams. We 
are going to have some questions for you which we will submit, 
and we will appreciate your comments on them for the record.
    Senator, do you have anything else you want to say?
    Senator Akaka. No.
    Senator Talent. We thank Senator DeWine for being our 
guest, and if there is nothing else we will adjourn the 
hearing. Thank you.
    [Whereupon, at 3:25 p.m., the hearing was adjourned.]

                               APPENDIXES

                              ----------                              


                               Appendix I

                   Responses to Additional Questions

                              ----------                              

                        Department of the Interior,
           Office of Legislative and Congressional Affairs,
                                                    Washington, DC.
Hon. Craig Thomas,
Chairman, Subcommittee on National Parks, Committee on Energy and 
        Natural Resources, U.S. Senate, Washington, DC.
    Dear Mr. Chairman: Enclosed are answers to the follow-up questions 
from the hearing held by the Subcommittee on National Parks on November 
15, 2005, on S. 431, S. 505, S. 1288, S. 1544, and S. Con. Res. 60, S. 
748 and H.R. 1084 and H.R. 2107. These responses have been prepared by 
the National Park Service.
    Thank you for giving us the opportunity to respond to you on this 
matter. Sincerely,
            Sincerely,
                                             Jane M. Lyder,
                                               Legislative Counsel.
[Enclosure.]

               Responses to Questions From Senator Thomas

    Question 1. (S. 431 Presidential Sites): Which parks units would 
experience delays in completing their maintenance backlog if this bill 
is enacted?
    Answer. Since funds for the grants to aid in the maintenance and 
upkeep of non-Federal presidential sites would be taken from 
appropriations allocated to the National Park Service (NPS) budget, 
some park units would experience delays. The maintenance backlog 
projects in the various park units are selected from a priority 
listing. It is not known at this time which park unit would be affected 
at the time the grant would be awarded.
    Question 2. (S. 505 Yuma Crossing Boundary Adjustment): Why is this 
boundary adjustment needed? Does this boundary adjustment involve any 
private land acquisition?
    Answer. The boundary adjustment reflects the preferred alternative 
for the Heritage Area management plan which was developed through a 
public process. The new boundary reduces the overall size of the 
heritage area and would not involve any acquisition of private 
property. The legislation that established the heritage area prohibits 
the use of federal funds to acquire private property.
    Question 3. (S. 1288 Natural Resources Protection): If this bill is 
enacted, which park unit has the most urgent and compelling invasive 
species problem that could benefit from provisions in the bill?
    Answer. There are 388 park units encompassing more than 84 million 
acres in the National Park System. More than 200 parks work on 
preventing and controlling invasive plants, and over 100 parks work on 
preventing and controlling invasive animals. It is difficult to say 
which park unit would benefit most from this legislation, because 
almost all parks are dealing with natural resource issues that could 
benefit from the authority to work with private and public sector 
neighbors on or near our boundaries. For example, at Haleakala and 
Hawaii Volcanoes National Parks in Hawaii, the NPS would become a full 
partner in local efforts to control Miconia and other key species that 
are invading unique island ecosystems. This authority could also be 
used to form partnerships on other natural resource issues beyond 
invasive species such as protecting park watersheds and restoring 
native wildlife habitat. To some degree, almost all parks in the System 
would benefit from this authority.
    Question 4. (S. 1544 Northern Plains National Heritage Area): Has a 
study been completed to determine the suitability of the Northern 
Plains for designation as a National Heritage Area?
    Answer. No a study has not been completed at this time. Requiring a 
feasibility study prior to designation is consistent with steps and 
criteria for the National Heritage Area program that have been 
informally implemented for many years and with the Administration's 
legislative proposal creating a National Heritage Area program sent to 
Congress last year. The steps and criteria have been developed with 
input from Congress, existing National Heritage Areas, and other 
experts and are designed to ensure that an area has the resources, 
local interest, and other qualities that are critical in establishing a 
successful National Heritage Area.
    Question 5. (S. Con. Res. 60 Negro Baseball League Museum): What 
role will the National Park Service have in advising, managing, or 
funding the museum in Kansas City as a result of this resolution?
    Answer. The Negro Baseball League Museum in Kansas City, Missouri 
is not a unit or located within a unit of the National Park System. 
Therefore, the NPS does not have a role in advising, managing, or 
funding the museum.
    Question 6. (S. 748 and H.R. 1084 Antietam New Hampshire 
Battlefield Memorial): How many memorials currently exist at Antietam 
and which states other than New Hampshire have expressed an interest in 
erecting memorials at Antietam?
    Answer. There are currently 105 monuments/memorials at Antietam 
National Battlefield. The following states have expressed an interest 
in constructing a monument/memorial to add to the battlefield:

          1. Arkansas
          2. North Carolina
          3. Mississippi
          4. Texas (already has a monument but wanted a larger one)
          5. Texas (wanted to construct a monument to General John Bell 
        Hood)
          6. Alabama
          7. Louisiana
          8. South Carolina
          9. Maine

    These requests have occurred within the last 10 years; all have 
been redirected into landscape restoration of the War Department 
Tablets or were not pursued.
    Question 7a. (H.R. 2107 National Law Enforcement Memorial Officers 
Coin): I understand that under the terms of the original legislation, 
the Department of the Interior was to give the income from the sale of 
the coins to the U.S. Treasury for deposit in an interest bearing 
account.
    How much funds were collected throughout the sale of the coin?
    Answer. $1,390,024
    Question 7b. Were the funds placed in an interest bearing account?
    Answer. The funds were placed in the approved ``interest bearing 
account'' in February 2005 and prior to that, since March 2002, were 
held in a ``suspense account.'' The account has earned $38,081.25 to 
date.
    Question 7c. How much interest would have the money earned if it 
had been placed in an interest bearing account?
    Answer. Calculating how much interest would have been earned would 
only be speculation at this point because of the number of factors that 
would influence that amount. The Treasury Department specifies what 
securities and what interest rates are available for this kind of 
interest-bearing account; these change from year to year. The variables 
to determine the investment decisions that would have influenced the 
interest that could have been earned between 2002 and 2005 are unknown.
                                 ______
                                 
      Responses of Emily Wadhams to Questions From Senator Thomas

    Question 1. What is the estimated cost to repair or rehabilitate 
the presidential sites that qualify for assistance under S. 431?
    Answer. There are about 80 non-federally owned presidential sites 
nationwide that would qualify for grants under this bill. Because none 
of these are cared for by the federal government and most of these are 
smaller, lesser known places that are run by private groups, local 
historic preservation organizations, schools, and foundations, it would 
be very difficult to come up with a reasonable estimate for repair and 
rehabilitation. It is certain, however, that the $5 million S. 431 
would authorize represents a small fraction of the total cost. These 
monies, however, are critical for two important reasons. First, the 
focus of this bill is on the smaller, lesser-known presidential site. 
These places--largely dependent on small entrance fees and donations--
are often so in need of funds, that ANY little bit would help. Second, 
by providing one of these sites with a little seed money from 
Washington, it would send a powerful message to prospective donors that 
the federal commitment is there and very much part of the site's 
fundraising efforts. The $5 million in this case is a very small amount 
well invested in our future.
    Question 2. Does the National Trust for Historic Preservation own 
any of the properties that qualify for assistance under this bill?
    Answer. Yes. The Trust has only two sites that would qualify--the 
Woodrow Wilson House in Washington, DC, and to a much lesser extent, 
James Madison's Montpelier in Virginia. Only the Woodrow Wilson House 
would be eligible for the larger, 65 percent category specified by the 
bill for smaller and lesser-known sites since it has an annual 
operating average under $700,000. Our third Presidential site, the 
Lincoln Cottage, is federally-owned and therefore ineligible under the 
bill.
    The bill would set up a review panel to give the Secretary of the 
Interior recommendations for awards under S. 431. Congress chartered us 
in 1949 to care for some of America's most valuable historic places and 
we've been doing a very good job of that since then. That's why we 
bring invaluable skills and expertise in operating and maintaining all 
historic places, including presidential sites. Let me assure you, 
however, that if the Trust should make an application for funds 
available under the bill, we would recuse ourselves from the review 
process that the bill would establish.
                                 ______
                                 
  Responses of John Jordan ``Buck'' O'Neil to Questions From Senator 
                                 Thomas

    Question 1. (S. Con. Res. 60 Negro Leagues Baseball Museum): How 
many visitors annually visit the museum?
    Answer. The Negro Leagues Baseball Museum (NLBM) attracts more than 
60,000 visitors annually from around the world.
    Question 2. Are you aware of any other museums in the United States 
t hat preserve the culture and heritage of the Negro Baseball Leagues? 
Would any be slighted or offended if the museum in Kansas City is 
declared the National Museum?
    Answer. No. The NLBM is the world's only museum dedicated to 
preserving and celebrating the rich history of African-American 
baseball and its impact on the social advancement of America. The NLBM 
operates in Kansas City, MO two blocks from the Paseo YMCA where Andrew 
``Rube'' Foster established the Negro Leagues in 1920.
    Question 3. (S. Con. Res. 60 Negro Leagues Baseball Museum): How is 
the museum currently funded?
    Answer. The NLBM is a private funded, 501 c3 charitable 
organization. Operating revenue is generated primarily through 
admissions, licensing program, special events, sponsorship and 
membership.
                                 ______
                                 
      Responses of Bob Letourneau to Questions From Senator Thomas

    Question 1. Who will be involved in designing the memorial and 
selecting a site for its construction?
    Answer. The New Hampshire Civil War Memorials Commission was 
established in 2000. This commission has a three fold charge: first, to 
establish a monument at Antietam National Battlefield Park, second, to 
pursue the preservation of existing monuments honoring our states Civil 
War veterans, third, and to develop Civil War educational programs and 
related educational opportunities for the benefit of New Hampshire 
school children.
    We established several subcommittees and assigned responsibility 
for each of our goals. Ms. Rebecca Rutter was elected chairman of the 
Monument Conservation and Construction Subcommittee. Ms Rutter wrote to 
Antietam National Battlefield Park Superintendent John W. Howard on 
December 30, 2000, for his advice on how to proceed. In a letter dated 
February 5, 2001 Mr. Howard was very kind with his response. In his 
letter he outlined the approval process for new monuments including 
size and type of material. He also included guidelines for construction 
and the approval process. We have had a continuing dialog with Mr. 
Howard and have complied with his every request. Mr. Howard has 
selected a location for the proposed monument and we are in full 
agreement with this location and the US Department of the Interior 
guidelines. Additionally several members of our Commission have toured 
the battlefield location and are satisfied that this location is 
appropriate for the New Hampshire memorial.
    With regard to the design, the Commission spent two years in 
development of a RFP and a selection process for the design of the 
monument. The RFP was sent to over 25 artist and we received 11 
responses. The commission then went through a detailed selection 
process and Mr. Gary Casteel of Four Winds Studio, a nationally 
recognized and respected Civil War sculptor was granted the commission. 
In a phone conversation Mr. Howard noted his approval. Mr. Howard 
stated he has had prior positive experience working with Mr. Casteel.
    Question 2. Who will be responsible for funding the design, 
construction and maintenance of the memorial?
    Answer. Total responsibility of the funding for this project lies 
with the New Hampshire Civil War Memorials Commission. This commission 
is a statutory commission attached to the New Hampshire legislature. 
One of the three primary responsibilities of the commission is to 
pursue the preservation of existing monuments at Gettysburg and to put 
into perpetual care the monument at Antietam. This will be accomplished 
by establishing a fund with Park approval from which they draw on the 
interest of the fund to maintain the monument.

                              Appendix II

              Additional Material Submitted for the Record

                              ----------                              

          The Senate of the State of New Hampshire,
                                     Concord, NH, November 9, 2005.
Hon. Craig Thomas,
Chairman, Subcommittee on National Parks, Committee on Energy and 
        Natural Resources, U.S. Senate, Washington, DC.

Hon. Daniel K. Akaka,
Ranking Member, Subcommittee on National Parks, Committee on Energy and 
        Natural Resources, U.S. Senate, Washington, DC.
    Dear Chairman Thomas and Ranking Member Akaka: I write to you to 
pledge my support for Senate Resolution 748 and House Resolution 1084, 
which authorizes the establishment of a Civil War Memorial to New 
Hampshire soldiers who fought at the Battle of Antietam in 1862. Your 
will be hearing testimony from New Hampshire State Senator Robert 
Letourneau on this matter. Along with State Representative Sherman 
Packard he has worked diligently over the last few years so that our 
troops who fought in Antietam will be appropriately honored. These 
gentlemen are to be commended for their work
    Out of the 100,000 troops that gathered in Antietam on September 
17's nearly 23,000 of those soldiers were killed, wounded or missing. 
Among them were three New Hampshire infantry regiments as well as an 
artillery battalion.
    Currently, New Hampshire is one of the only states that 
participated in the Battle of Antietam that does not have a memorial 
dedicated to its' soldiers. The citizens of New Hampshire are proud of 
their ancestors' participation in the battle and this memorial would be 
an appropriate tribute to the bravery our soldiers. Private donations 
will be used for the construction and upkeep of this memorial, no 
federal funds will be needed.
    It is my hope, and my request, that your subcommittee will. vote in 
favor of these two pieces of legislation, It is time that our soldiers 
can receive the recognition they deserve on the federal level.
    If you have any questions regarding this matter, please feel free 
to contact me. Thank you for your time and consideration on this very 
important issue.
            Sincerely,
                                        Theodore L. Gatsas,
                                                  Senate President.
                                 ______
                                 
                            State of New Hampshire,
                                  House of Representatives,
                                    Concord, NH, November 10, 2005.
Hon. Craig Thomas,
Chairman, Subcommittee on National Parks, Committee on Energy and 
        Natural Resources, U.S. Senate, Washington, DC.

Hon. Daniel K. Akaka,
Ranking Member, Subcommittee on National Parks, Committee on Energy and 
        Natural Resources, U.S. Senate, Washington, DC.
    Dear Chairman Thomas and Ranking Member Akaka: I support the Senate 
Resolution 748 and House Resolution 1084, which authorizes the building 
of a Civil War monument at Antietam National Batlefield.
    In 1890, Congress declared Antietam a national battlefield.It is 
there that our ancestors fought and died leaving us the legacy of 
freedom we enjoy today. New Hampshire battle participants are without a 
monument on that hallowed ground. Did our brave men not die along with 
the rest? Did their families not suffer their losses like the others? 
Do we not deserve a place to honor our fallen heroes?
    I respect the wishes of some to preserve the land and surroundings 
of the Antietam National Battlefield. The land will always be there as 
a symbol of rebirth and renewal. The land has healed itself and it is 
once again pristine from the blood and devastation to human life that 
transpired there. But a monument commemorating the courage of our NH 
men who fought and died there does not exist. What speaks of their 
ultimate sacrifice in those green fields? What reminds us that there 
were men from NH who fought there so we could `Live Free or Die'?
    We have worked hard to create a fitting monument to grace this 
hallowed ground. One that blends into the surrounding landscape and 
compliments the scene. We are asking only that we be allowed to 
consecrate the battlefield with a fitting tribute that might exist when 
all of us are gone, one that tells the tale of our brave men. i ask on 
behalf of NH citizens that we be allowed to honor our Civil War dead at 
this historic place.
    I am hopeful that you and your subcommittee will vote in favor of 
this legislation. It is our wish to leave behind something that shows 
that NH remembers its own.
            Sincerely,
                                         Kenneth L. Weyler,
                                                    Deputy Speaker.
                                 ______
                                 
                            State of New Hampshire,
                                    Office of the Governor,
                                    Concord, NH, November 10, 2005.
Hon. Craig Thomas,
Chairman, Subcommittee on National Parks, Committee on Energy and 
        Natural Resources, U.S. Senate, Washington, DC.
    Dear Chairman Thomas: I write in support of S. 749 and H.R. I094, 
bills to authorize the establishment at Antietam National Battlefield 
of a memorial to the officers and enlisted men of the Fifth, Sixth and 
Ninth New Hampshire Volunteer Infantry regiments and the First New 
Hampshire Light Artillery Battery who fought in the Battle of Antietam 
on September 17, 1862.
    The Union soldiers who fought at the Battle of Antietam helped turn 
the course of the Civil War, halting General Lee's invasion of the 
North and giving Lincoln the victory he need to issue the Emancipation 
Proclamation, which broadened support for the Union cause and 
potentially prevented England and France from lending support to the 
Confederacy.
    Soldiers from New Hampshire played a crucial role in this battle, 
and--like soldiers from across the Union and the Confederacy--paid a 
heavy price. Nearly one-third of the members of the Fifth Volunteer 
Infantry regiment were killed or wounded; the Sixth saw four killed and 
13 wounded; the 10th saw 10 of its soldiers killed and 49 wounded; and 
the First New Hampshire Light Artillery Battery saw three of its men 
wounded.
    Antietam National Park has 104 monuments recognizing states, 
individual regiments, and generals, even a monument to war 
correspondents.
    There is no monument, however, that commemorates the tremendous 
contributions and sacrifices of New Hampshire's soldiers. That is a 
historic oversight that should be corrected.
    I ask members of the Committee to support this legislation that 
will allow New Hampshire to remember our citizens who fought, suffered 
and died to keep our nation whole.
    Thank you for your consideration.
            Sincerely,
                                                John Lynch,
                                                          Governor.


</pre></body></html>
